<html>
<title> - HOW CAN THE UNITED STATES SECRET SERVICE EVOLVE TO MEET THE CHALLENGES AHEAD?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


HOW CAN THE UNITED STATES SECRET SERVICE EVOLVE TO MEET THE CHALLENGES 
                                 AHEAD?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                          PROTECTIVE SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2017

                               __________

                           Serial No. 115-19

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                                
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-612 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f180f103f1c0a0c0b171a130f511c101251">[email&#160;protected]</a>                               
                               
                               
                               
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                     John Katko, New York, Chairman
Peter T. King, New York              Bonnie Watson Coleman, New Jersey
Mike Rogers, Alabama                 William R. Keating, Massachusetts
Clay Higgins, Louisiana              Donald M. Payne, Jr., New Jersey
Brian K. Fitzpatrick, Pennsylvania   Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
         Cedric C. Haynes, Minority Subcommittee Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  and Protective Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Randolph D. ``Tex'' Alles, Director, U.S. Secret Service, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. John Roth, Inspector General, Office of the Inspector 
  General, U.S. Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

 
HOW CAN THE UNITED STATES SECRET SERVICE EVOLVE TO MEET THE CHALLENGES 
                                 AHEAD?

                              ----------                              


                         Thursday, June 8, 2017

             U.S. House of Representatives,
                Subcommittee on Transportation and 
                               Protective Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. John Katko (Chairman 
of the subcommittee) presiding.
    Present: Representatives Katko, Higgins, Fitzpatrick, and 
Watson Coleman.
    Also present: Representative Jackson Lee.
    Mr. Katko. The Committee on Homeland Security, Subcommittee 
on Transportation and Protective Security, will come to order.
    The subcommittee is meeting today to examine how the United 
States Secret Service can more effectively achieve its mission 
of protecting the Nation's leaders and financial systems. This 
hearing will address agency staffing, recruitment, and morale 
improvement efforts as well as agency challenges, such as 
resource constraints and misconduct.
    I now recognize myself for an opening statement.
    The subcommittee meets today to hold our first Secret 
Service-related hearing of the 115th Congress. Since this panel 
was tasked with overseeing the United States Secret Service 
just this year, I have already come to appreciate as well as my 
colleagues have the significant contributions this agency makes 
to the functioning of our Government as well as the challenges 
it faces in manpower, funding, and perhaps most important, 
morale.
    Having recently visited the headquarters of the Secret 
Service with Ranking Member Watson Coleman and other Members of 
the subcommittee, I have seen the incredibly detailed and 
challenging work the men and women of this agency are 
accomplishing every day to safeguard our Nation's leaders and 
ensure the security of America's financial system.
    While visiting the agency, I was briefed on investigations 
aimed at protecting businesses and individuals from financial 
crimes all across the country, even within the district I 
represent encompassing the Syracuse, New York area.
    Not only is this our first Secret Service hearing of the 
115th Congress, but it is also the first time Director Alles 
has testified before us in his new appointed capacity as head 
of the Secret Service.
    May I say, Director, in your previous career as a general, 
we want to thank you for your many, many years of service.
    Mr. Alles. Thank you, sir.
    Mr. Katko. We appreciate all you have done for your 
country.
    Mr. Alles. Thank you.
    Mr. Katko. For that, we welcome the new director and look 
forward to hearing more about his vision on how to improve and 
transform the agency moving forward. Indeed, most Americans 
know the Secret Service for its visible role of protecting the 
President and Vice President and their families from threats to 
their safety. However, the agency also conducts elaborate, in-
depth investigations related to financial and cyber crimes, 
which cut straight to the heart of the overall Homeland 
Security mission of the Department of Homeland Security.
    For example, on March 1 of this year, the Secret Service, 
in conjunction with a number of other Federal law enforcement 
partners, helped to facilitate the arrest and indictment of 19 
people charged with defrauding 170 people, primarily in the 
United States, out of more than $13 million.
    Further, in November 2016, the Secret Service conducted the 
largest-ever seizure operation of $30 million in counterfeit 
U.S. currency in Peru.
    For the purpose for highlighting these operations is to 
note that these massive investigations were happening 
simultaneously with the Secret Service experiencing 
unprecedented strains on its protective missions, protecting 
such high-profile events as the U.N. General Assembly, a number 
of last year's Presidential candidates, the Republican and 
Democratic National Conventions, and the recent Presidential 
inauguration, to name a few. If I am not mistaken, it also 
included the Pope visiting New York City.
    Unbelievable job on all of those things, and the fact that 
all of them were safe is a testament to the professionalism of 
the Secret Service, and we thank them for that. Throughout all 
this, the agency has been professional and diligent, and for 
that I commend the men and women of the Secret Service.
    With unprecedented mission requirements and a demanding 
work environment, it is concerning to see that over the last 
few years all kinds of measurables have shown consistent 
decreases in work force morale and sometimes performance at the 
agency.
    Through Congressional oversight, third-party reviews, and 
internal agency initiatives, the Secret Service has been given 
a number of recommendations to improve morale, retention, and 
recruitment.
    While many of these have been adopted, this hearing will 
allow the subcommittee to delve into what more needs to be done 
to provide the Secret Service with the resources needed to 
continue fulfilling its mission, adequately staffing 
operations, and improving morale as we enter a new 
administration.
    No doubt, with this new administration comes new protective 
missions, challenges, and resource constraints which require 
Congressional review to ensure efficiency and effectiveness. 
Oftentimes, the Secret Service is an agency that prefers to 
keep its head down and carry out its missions diligently, away 
from the spotlight. However, we here in the subcommittee have a 
mandate to pay close attention to the successes, challenges, 
needs, and efforts of the Secret Service. I hope that the 
testimony before us today will delve into these issues and 
inform our work as we commit to working in a partnership with 
the Secret Service.
    The men and women working to carry out the mission of the 
Secret Service comprise one of the finest law enforcement 
agencies in the world, and we owe it to them to be responsible 
overseers for them and give them the tools they need to 
successfully do their job. Whether it be the Secret Service's 
special agents, criminal investigators, intelligence analysts, 
Counter Assault Team, Emergency Response Team, Airspace 
Security Branch, or Electronic Crimes Task Force, we need to 
ensure that the agency is well-positioned to carry out its 
critically important mission and enhance the stability of our 
homeland security enterprise.
    With that, I recognize the Ranking Member of the 
subcommittee, the gentlelady from New Jersey, my friend, Mrs. 
Watson Coleman, for an opening statement.
    [The prepared statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                              June 8, 2017
    The subcommittee meets today to hold our first Secret Service-
related hearing of the 115th Congress. Since this panel was tasked with 
overseeing the United States Secret Service just this year, I have 
already come to appreciate the significant contributions this agency 
makes to the functioning of our Government, as well as the challenges 
it faces in manpower, funding, and morale. Having recently visited the 
headquarters of the Secret Service with Ranking Member Watson Coleman 
and other Members of the subcommittee, I have seen the incredibly 
detailed and challenging work the men and women of this agency are 
accomplishing every day to safeguard our Nation's leaders and ensure 
the security of America's financial system. While visiting the agency, 
I was briefed on investigations aimed at protecting businesses and 
individuals from financial crimes all across the country, even within 
the district I represent encompassing the greater Syracuse area.
    Not only is this our first Secret Service hearing of the 115th 
Congress, but it is also the first time Director Alles has testified 
before us in his newly-appointed capacity as head of the Secret 
Service. For that, we welcome the new director and look forward to 
hearing more about his vision on how to improve and transform the 
agency moving forward.
    Indeed, most Americans know the Secret Service for its more visible 
role in protecting the President, Vice President, and their families 
from threats to their safety. However, the agency also conducts 
elaborate, in-depth investigations related to financial and cyber 
crimes, which cut straight to the heart of the overall homeland 
security mission of DHS. For example, on March 1 of this year the 
Secret Service, in conjunction with a number of other Federal law 
enforcement partners, helped facilitate the arrest and indictment of 19 
people charged with defrauding 170 people, primarily in the United 
States, out of more than $13 million. Further, in November of 2016, the 
Secret Service conducted the largest-ever seizure operation of $30 
million in counterfeit U.S. currency in Peru.
    The purpose for highlighting these operations is to note that these 
massive investigations were happening at the same time that the Secret 
Service was experiencing unprecedented strains on its protective 
mission--protecting such high-profile events as the U.N. General 
Assembly, a number of last year's Presidential candidates, the 
Republican and Democratic National Conventions, and the recent 
Presidential Inauguration. Throughout all of this, the agency has been 
professional and diligent and for that. I commend the men and women of 
the Secret Service.
    With unprecedented mission requirements and a demanding work 
environment, it is concerning to see that over the last few years 
measurements have shown consistent decreases in workforce morale at the 
agency. Through Congressional oversight, third-party reviews, and 
internal agency initiatives, the Secret Service has been given a number 
of recommendations to improve morale, retention, and recruitment. While 
many of these have been adopted, this hearing will allow the 
subcommittee to delve into what more needs to be done to provide the 
Secret Service with the resources needed to continue fulfilling its 
mission, adequately staffing operations, and improving morale as we 
enter a new administration.
    With this new administration comes new protective missions, 
challenges, and resource constraints which require Congressional review 
to ensure efficiency and effectiveness. Oftentimes, the Secret Service 
is an agency that prefers to keep its head down and carry out its 
mission diligently away from the spotlight. However, we here on this 
subcommittee have a mandate to pay close attention to the successes, 
challenges, needs, and efforts of the Secret Service.
    I hope that the testimony before us today will delve into these 
issues and inform our work as we commit to working in partnership with 
the Secret Service. The men and women working to carry out the mission 
of the Secret Service comprise one of the finest law enforcement 
agencies in the world--and we owe it to them to be responsible 
overseers. Whether it be the Secret Service's special agents, criminal 
investigators, intelligence analysts, counter-assault team, emergency 
response team, airspace security branch, or electronic crimes task 
force, we need to ensure that the agency is well-positioned to carry 
out its critically important mission and enhance the stability of our 
homeland security enterprise.

    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here today.
    Director Alles, thank you for taking on this responsibility 
of leading the Secret Service. I do appreciate your willingness 
to serve the country. I do associate myself with the fine 
things that my Chairman has mentioned with regard to your 
former career, and I look forward to establishing a working 
relationship with you.
    Mr. Roth, it is always good to see you here.
    I will start by saying that I am very concerned about the 
institutional, operational, and budgetary challenges that the 
Secret Service currently faces. Even prior to the election of 
Donald Trump, the Secret Service was plagued by low staff 
morale, low recruitment, low retention, source limitations, and 
cultural problems.
    Then we get to 2016. In that Presidential election year, 
the Secret Service was busier than ever protecting multiple 
Presidential candidates, protecting President Obama, and 
overseeing security for major National and international 
events. The Secret Service remarkably rose to the occasion, did 
it all, and did it with low staff numbers.
    The demands of carrying out the protective mission has only 
expanded since the election. Today, the Secret Service must 
provide protection for the President, the First Lady, his 
children, including his adult children who travel regularly for 
business and pleasure to places like Uruguay, the UAE, and the 
Dominican Republic, Canada, and Aspen, Colorado. Through the 
winter, the President traveled weekly to his private club, the 
Mar-a-Lago Golf Club.
    Agents involved in currency and cyber investigation work 
have had to be reassigned to duties in New York City, since the 
First Lady has continued to reside in the heart of Manhattan. 
Agents have been forced to crisscross the globe at what seems 
like a record pace. While President Obama's travel totaled 
roughly $97 million for the entire 8 years of his Presidency, 
Donald Trump's travel cost taxpayers $20 million in just the 
first 80 days of his Presidency.
    Beyond the dollars and cents, though, there is a hidden 
cost, the time that the men and women who bravely serve in the 
Secret Service are taken away from their other homeland 
security and investigative work as well as their families as 
they shadow the globe-trotting Trumps. That is a tongue 
twister. I have heard story after story of Secret Service 
agents burning out, and we need to talk about this. Many of the 
burnout stories I heard were before Donald Trump took office, 
and I hope to hear today how the Trump family's jet-setting 
lifestyle is impacting our Secret Service.
    Financial resources are also of great concern to me. 
Particularly, I am concerned that the Secret Service protection 
is being used while members of the Trump family are pursuing 
business interests abroad on behalf of the President at the 
expense of taxpayers, and I will be introducing a bill in the 
coming days to prevent the President from becoming enriched 
from these taxpayer dollars.
    In March, we learned that the Secret Service asked the 
Office of Management and Budget for an additional $60 million 
to carry out its current obligations. It was reported then that 
the White House flatly rejected the request. If that is true, 
that is absurd.
    Here you have an agency stretched thin prior to the 
administration, their protectee assignments increased 
significantly with the new administration, then they asked for 
additional money to absorb the new costs incurred, and they 
were rebuffed.
    I have little confidence that the President's budget 
proposal that was released 2 weeks ago is adequate for the 
agency. I hope that we hear today some honest expert opinions 
on what the Secret Service needs to address its long-standing 
challenges and carry out its mission.
    I also hope that we get a chance to hear today how the 
Secret Service is addressing some of the long-standing concerns 
on management practices which came to light in the Moore racial 
discrimination litigation and the recommendations that were 
made by the Protective Mission Panel.
    Mr. Chairman, I do want you and everyone on our 
subcommittee to know that I am here to work hand-in-hand with 
you and to help provide the Secret Service with needed 
resources and oversight. I hope that Director Alles' leadership 
will pick up where Director Clancy left off in implementing key 
reforms to improve the agency's performance, address staffing 
challenges, and elevate the agency's standing with employees 
and prospective employees.
    Once again, I want to thank both witnesses for appearing 
before us today. I look forward to our testimony.
    With that, I yield back the balance of my time, Mr. 
Chairman.
    [The statement of Ranking Member Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                              June 8, 2017
    I will start with saying that I am very concerned about the 
institutional, operational, and budgetary challenges that Secret 
Service currently faces. Even prior to the election of Donald Trump, 
the Secret Service was plagued by low staff morale, low recruitment, 
low retention, resource limitations and cultural problems.
    Then we get to 2016. In that Presidential Election year, the Secret 
Service was busier than ever protecting multiple Presidential 
candidates, protecting President Obama, and overseeing security for 
major National and international events. The Secret Service remarkably 
rose to the occasion and did it all, with low staff numbers. The 
demands of carrying out the protective mission have only expanded since 
the election.
    Today, the Secret Service must provide protection for President 
Trump, the First Lady, his children--including his adult children who 
travel regularly for business and pleasure to places like Uruguay, UAE, 
the Dominican Republic, Canada, and Aspen. Through the winter, the 
President traveled weekly to his private club in Florida, the Mar-a-
Lago Golf Club. Agents involved in currency and cyber investigative 
work have had to be reassigned to duties in New York City, since the 
First Lady continues to reside in the heart of Manhattan. Agents have 
been forced to crisscross the globe at what seems like a record pace. 
While the cost of President Obama's travel totaled roughly $97 million 
for the entire 8 years of his presidency, President Trump's travel cost 
taxpayers $20 million in just the first 80 days.
    Beyond the dollars and cents, there is a hidden cost--the time that 
the men and women who bravely serve in the Secret Service are taken 
away from their other homeland security and investigative work as well 
as their families--as they shadow the globe-trotting Trumps. I have 
heard story after story of Secret Service agents burning out and we 
need to talk about this. Many of the burnout stories I heard, were 
before President Trump took office. I hope to hear today how the Trump 
family jet-setting lifestyle is impacting the Secret Service.
    Financial resources are also of great concern to me. Particularly, 
I am concerned that the Secret Service's protection is being used while 
members of the Trump family are pursuing business interests abroad on 
behalf of the President at the of expense taxpayers. I will be 
introducing a bill in the coming days to prevent the President from 
becoming enriched from the taxpayer dollars.
    In March, we learned that the Secret Service asked the Office of 
Management and Budget for an additional $60 million to carry out its 
current obligations. It was reported that the White House flatly 
rejected the request. If true, that is absurd. Here you have an agency 
stretched thin prior to the new administration, their protectee 
assignments increase significantly with the new administration, then 
they ask for additional money to absorb the new costs incurred and they 
are rebuffed. I have little confidence that the President's budget 
proposal that was released 2 weeks ago is adequate for the agency. I 
hope that we hear today some honest, expert opinions on what the Secret 
Service needs to address its long-standing challenges and carry out its 
mission.
    I also hope that we get a chance to hear today how the Secret 
Service is addressing some of the long-standing concerns on management 
practices as came to light in the Moore racial discrimination 
litigation and the recommendations made by the Protective Mission 
Panel.
    I want you and everyone on our subcommittee to know that I am here 
to work hand-in-hand with you to help provide the Secret Service with 
needed resources and oversight. I hope that Director Alles' leadership 
will pick up where Director Clancy left off in implementing key reforms 
to improve the agency's performance, address staffing challenges, and 
elevate the agency's standing with employees and perspective employees.

    Mr. Katko. Thank you, Mrs. Watson Coleman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              June 8, 2017
    Director Alles, we appreciate your background, including your 
tenure at the Customs and Border Protection. The Secret Service shares 
some of the same challenges as the CBP. I hope that your CBP experience 
will translate to improvements at the Secret Service. Similar to CBP, 
the staff of the Secret Service is overworked, often forced to work 
overtime in positions where getting it right is essential to keeping 
Americans safe.
    One of the recommendations of the Secret Service Protective Mission 
Panel was to find leadership from outside of the Service so that top-
level leadership would have a fresh perspective on how the agency 
should be run. I am pleased that that recommendation was fulfilled. I 
hope today's conversation will highlight other recommendations from the 
Protective Mission Panel and their status.
    The dedication of the men and women of the Secret Service is 
indisputable; however, the law enforcement agency has been plagued with 
cultural problems and management challenges that often overshadow the 
Secret Sevice's accomplishments.
    Earlier this year, the Moore v. Johnson legal settlement was an 
important step in the Secret Service rejecting historic routine and 
unfair promotion practices. While the settlement was agreed to in 
January, there are many milestones that will need to be achieved under 
the terms of the settlement. I look forward to discussing the steps 
that the Secret Service has taken to address the terms of the Moore 
settlement.
    In addition to cultural and management issues, there have been 
media accounts of resource shortfalls. I have heard reports of 
personnel constraints for the USSS. Most concerning are the reports 
that the USSS may have an insufficient number of agents to handle its 
increased protectee responsibilities.
    Since Donald Trump became the President, the USSS is covering 
considerably more protectees but is down 250 special agents and 350 
administrative and technical staff members compared to its peak at the 
beginning of the Obama administration.
    Further, reports have indicated that personnel shortages have 
prompted field offices around the country to reassign personnel to 
activities unrelated to their usual criminal investigations duties.
    Reportedly, the New York field office has had to reassign nearly a 
third of the staff from their criminal investigation duties to 
protective assignments. I hope to hear today how the adjustments that 
have been made for the benefit of the protectees has impacted the 
Secret Service's mission.
    With all the challenges of the Secret Service, one thing very clear 
and that is without the support of Congress, the Secret Service will 
not be able to improve. I look forward to hearing today about ways 
Congress can be a better partner in helping the agency complete its 
mission.

    Mr. Katko. We are very pleased to have with us two very 
distinguished witnesses to speak on this important topic. Let 
me remind the witnesses that their entire written statements 
will appear in the record.
    Our first witness is Director Randolph Alles, who was 
confirmed in April 2017 as the 25th director of the United 
States Secret Service in their long and storied existence.
    Director Alles oversees the agency's missions in more than 
150 offices throughout the United States and abroad. Prior to 
this appointment, Director Alles was the acting deputy 
commissioner of the U.S. Customs and Border Protection, serving 
as the chief operating officer.
    The director served in the U.S. Marines for 35 years, 
retiring as major general.
    Sir, thank you for your service again and dedication to the 
country.
    The Chair now recognizes Director Alles to testify.

 STATEMENT OF RANDOLPH D. ``TEX'' ALLES, DIRECTOR, U.S. SECRET 
         SERVICE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Alles. Thank you very much, Chairman Katko and Ranking 
Member Watson Coleman and distinguished Members of the 
committee. It is a privilege to appear before you today and to 
represent the outstanding men and women of the Secret Service.
    Since my swearing in as the 25th director, I have met 
personnel across all job categories and I am reassured by their 
professionalism and their commitment to the agency's mission. 
It is not lost on me that I am the first director to be named 
from outside the organization in over 70 years. The last 
director in 1947 was the last non-agency director.
    So although I face a steep learning curve to understand 
this unique law enforcement agency, I believe the mission focus 
of the Secret Service has much in common with the ethos of my 
entire career. My experience as a military officer with the 
Marine Corps and serving as the acting deputy commissioner over 
at Customs and Border Protection have provided me with common 
ground to successfully lead the agency.
    So I would like to take a moment to recognize the 
protection successes of the agency and its public safety 
partners at all levels. Over the past 2 years, the Secret 
Service coordinated security for over 11 National special 
security events and the Pope's visit to Washington, New York, 
and Philadelphia, the National political conventions, and the 
Presidential inauguration.
    More recently, in locations faced with the persistent 
threat of terrorist attack, Secret Service personnel 
effectively coordinated the complex security arrangements for 
the 11-day foreign trip of Vice President Pence throughout 
Southeast Asia and Australia and the 8-day foreign trip by 
President Trump to Saudi Arabia, Israel, Belgium, and Italy.
    So even as protection has been and remains our primary 
focus, the agency has prioritized its resources to effectively 
further the investigative mission. In fiscal year 2016, our 
field officers closed over 3,500 criminal cases resulting in 
over 2,100 arrests.
    The agency remains committed in advancing its capabilities 
to stop cyber criminals like Roman Seleznev as they develop 
innovative ways to compromise our financial institutions. 
Seleznev, one of the most prolific traffickers of credit card 
data in the past 10 years, targeted over 3,000 banking and 
financial institutions, which incurred a total loss of $169 
million. The long and painstaking investigation conducted by 
our personnel working closely with several State and local 
partners resulted in Seleznev's arrest and subsequent 27-year 
Federal prison sentence.
    It should be noted that the accomplishments of the agency 
have been borne by a work force that continues to be 
significantly understaffed to meet current operational demands. 
This has caused an undue burden on the existing work force and 
has contributed to an attrition rate that is far too high.
    Staffing, retention, and improving morale are top 
priorities. I am fully devoted to addressing these problems and 
have already implemented some promising solutions recommended 
by our employees and our senior leaders. For example, we have 
put in place several efficiencies in our employment practice, 
reducing the hiring time from more than 15 months to just 4 
months.
    Hiring the best candidates and reducing attrition are 
critical to the agency's endurance as a top law enforcement 
organization. These men and women are among the most highly 
skilled in the Federal work force. Their skill sets and 
professionalism make them highly desirable across Government 
and the private sector. It is clear that increasing staffing to 
healthier levels will likely have a positive effect on 
attrition and retention, contributing to a better work life 
balance and increased training opportunities.
    There is no quick fix when it comes to growing staffing 
levels, although the agency requires time to fully realize its 
personnel needs. We will not take short cuts to compromise our 
high standards.
    We are building on the momentum of our positive recruitment 
efforts. In fiscal year 2017, we expect to hire about 300 
special agents, 280 Uniformed Division officers, 260 
administrative, professional, and technical staff. Our 
Strategic Human Capital Plan includes an additional 450 special 
agents, 150 Uniformed Division, and 300 APTs by the end of 
fiscal year 2019.
    So while we have made significant progress in our hiring 
goals, we realize these achievements have the effect of running 
in place if attrition is ignored. The agency's retention 
efforts have targeted every sector of our work force. With the 
assistance of the Department and Congress, we have implemented 
the UD Retention Bonus Program as well as student loan 
repayment and tuition assistance programs.
    The 114th Congress passed H.R. 6302, the Overtime Pay for 
Protective Services Act of 2016, which allowed our personnel to 
be compensated above the statutory salary cap for the 2016 
Presidential campaign year. That was a tremendous morale boost, 
and I thank you all for seeing that through to its successful 
completion, and I see that as a substantial challenge now and 
going forward.
    So in closing, I would like to thank former Director Clancy 
for his commitment that he exhibited while he was the Director 
of the organization. His efforts on the work force and its 
critical mission have resulted in the progress mentioned to 
date. I also would like to take this opportunity to thank 
retired Chief Kevin Simpson for his leadership in the Uniformed 
Division.
    So as we move forward, I intend to focus considerable 
effort on the continual improvement of the agency to include 
the Secret Service security posture at the White House, 
increased staffing and funding levels, while reinforcing core 
principles of leadership and professionalism which are critical 
to success.
    So Chairman Katko, Ranking Member Watson Coleman, and 
Members of the committee, this concludes my oral testimony, and 
I welcome any questions that you have. Thank you very much.
    [The prepared statement of Mr. Alles follows:]
            Prepared Statement of Randolph D. ``Tex'' Alles
                              June 8, 2017
    Good morning Chairman Katko, Ranking Member Watson Coleman, and 
distinguished Members of the committee. Thank you for the opportunity 
to appear before you today to represent the outstanding men and women 
of the U.S. Secret Service (Secret Service). Since my swearing in as 
the twenty-fifth director, I have met with many of our personnel across 
all jobs and mission categories and I am reassured by their 
professionalism and commitment to the Secret Service missions.
    It is not lost on me that I am the first Secret Service director to 
be named from outside the agency in over 70 years. Although I face a 
steep learning curve to understand this unique law enforcement agency, 
I believe the mission focus of the Secret Service has much in common 
with the ethos of my entire career. My experiences to date as a 
military officer with the U.S. Marine Corps and most recently as acting 
deputy commissioner with U.S. Customs and Border Protection, have 
provided me with significant common ground with our personnel and have 
prepared me to successfully lead the agency.
    I would like to take a moment to recognize the numerous 
accomplishments of the Secret Service over the past 2 years. In this 
time period, our personnel have coordinated security for 11 National 
Special Security Events (NSSEs), including two State of the Union 
addresses, the Nuclear Security Summit in Washington, DC, two United 
Nations General Assemblies (UNGA) (70 and 71), the visit of Pope 
Francis to the United States, which included Washington, DC, New York, 
NY and Philadelphia, PA; the Republican and Democratic National 
Conventions, and the Presidential Inauguration. In support of these 
NSSEs, the Secret Service Uniformed Division and its DHS partners 
screened more than 6 million members of the public at the events. It is 
worthy to note that UNGA-70 and the Papal visit to New York City 
occurred simultaneously--never before had the agency been faced with 
coordinating security for two concurrent NSSEs.
    In fiscal year 2016, the Secret Service realized a 38 percent 
increase in total protective stops compared to fiscal year 2015, as 
well as a 32 percent increase in campaign-related stops over fiscal 
year (the last Presidential campaign without an incumbent). More 
recently, the Secret Service secured several large-scale events, to 
include the International Monetary Fund and World Bank Group Spring 
Meeting, and an 11-day Vice Presidential foreign trip throughout 
Southeast Asia and Australia. In addition, the Secret Service 
successfully secured a number of protective stops during the 
President's recent 8-day foreign trip to Saudi Arabia, Israel, Belgium, 
and Italy.
    Even as protection has been and remains our primary mission focus, 
the investigative mission of the Secret Service is critically important 
and noteworthy. We have prioritized our limited resources to 
effectively further the investigative mission. In fiscal year 2016, in 
the midst of a demanding Presidential campaign year, our field 
personnel closed 3,592 criminal cases resulting in 2,125 arrests. Our 
cyber investigations prevented $558 million in potential loss and 
$124.5 million in actual loss in fiscal year 2016. The agency remains 
committed to advancing its capabilities to protect America's financial 
infrastructure to stop cyber criminals as they develop advanced malware 
to compromise the computer networks of U.S. financial institutions and 
businesses. In fact, to better support these investigations, we have 
updated our training curriculum to include basic cyber training for all 
new incoming Special Agents.
    Criminal investigations provide opportunities for Secret Service 
personnel to forge partnerships with Federal, State, and local law 
enforcement and prosecutorial partners to promote support for our 
integrated missions. The Nation-wide network of Electronic and 
Financial Crime Task Forces (ECTF/FCTF) and the cyber forensic training 
available through the National Computer Forensic Institute (NCFI) allow 
for the sharing of investigative resources with law enforcement at all 
levels.
    Last, through our international law enforcement relationships, the 
Secret Service partners with vetted anti-counterfeit efforts in South 
America to reduce the production, sale, and distribution of counterfeit 
U.S. currency within Colombia and Peru and its export to other 
countries. The latest effort, termed Project South America, seized 
$22.9 million in counterfeit notes, arrested 102 individuals and 
suppressed one counterfeit operation in fiscal year 2016.
    I want to stress the above-mentioned accomplishments have been 
borne by a workforce that continues to be significantly understaffed to 
meet current and emergent operational demands. This has caused an undue 
burden on the existing workforce and has contributed to an attrition 
rate that is far too high. Leadership, morale, hiring, retention, and 
securing adequate resources are my top priorities for the agency. I am 
fully focused on these problems and we are implementing solutions.
                  human capital (hiring and retention)
    The Secret Service remains dedicated to our human capital and we 
realize, as with any elite organization, that our people are our most 
important asset. A healthy, robust workforce benefits all involved and 
allows us to achieve excellence in our integrated mission. Increased 
staffing is the key to enabling improved quality of life and to 
providing training opportunities for our employees. In 2015, the Secret 
Service hired 207 Special Agents, 151 Uniformed Division Officers and 
125 Administrative, Professional and Technical (APT) staff members. In 
2016, amidst the extraordinary protective tempo of the Presidential 
Campaign, the agency hired 327 Special Agents, 309 Uniformed Division 
officers, and 194 APT staff members, giving us the highest total 
employee population we have had since 2012. In addition, the Office of 
Human Resources has been able to reduce applicant processing time for 
Special Agents and Uniformed Division Officers from approximately 15 
months to 4 months.
    Hiring and reducing attrition is critical to the agency's success. 
The men and women of the Secret Service are among the most highly 
skilled in the Federal workforce. Their skillsets and professionalism 
make them highly desirable across Government and the private sector. It 
is clear that increasing staffing to healthier levels will have a 
positive effect on attrition and retention--contributing to a better 
work/life balance and increased training opportunities. There is no 
quick fix when it comes to increasing staffing levels. Although the 
agency requires time to fully realize its personnel needs, we will not 
take shortcuts that compromise our high standards.
    We are building on the momentum of our fiscal year recruiting 
efforts. In fiscal year 2017, we expect to hire approximately 300 
Special Agents, 280 Uniformed Division officers, and 260 APTs. Our 
Strategic Human Capital Plan includes an addition of 450 Special 
Agents, 150 Uniformed Division Officers, and 300 APTs by the end of 
fiscal year 2019. The tireless efforts of our Human Capital Division, 
Security Management Division, field offices, and the James J. Rowley 
Training Center, in coordination with the Federal Law Enforcement 
Training Centers, are making this possible.
    While we have made significant progress on our hiring goals, we 
realize these achievements have the effect of running in place if 
attrition is ignored. The agency's retention efforts are targeted to 
every sector of our workforce. With the assistance of the Department 
and Congress, we have implemented the Uniformed Division Retention 
Bonus Program, as well as student loan repayment and tuition assistance 
programs. Two additional examples of retention tools are an updated 
telework policy to allow more workforce flexibility, and revitalized 
Senior Special Agent and Senior Resident Agent programs. The Secret 
Service has also implemented an agency-wide APT Career Progression Plan 
and is very close to implementing a child care subsidy program. 
Additionally, the 114th Congress passed H.R. 6302, the Overtime Pay for 
Protective Services Act of 2016, which allowed our personnel to be 
compensated above the statutory salary cap (up to level II of the 
Executive Schedule) for the 2016 Presidential Campaign year. This was a 
tremendous morale boost to a workforce that had experienced an 
operational tempo unlike any other. We will continue to work together 
with Congress, the Department, and the administration to institute 
additional legislative measures to improve overall staffing, training, 
morale, and the work/life balance of our entire workforce.
    To accommodate increased hiring, our Office of Training has 
adjusted to meet training needs. In addition to growing its training 
staff, the Rowley Training Center has begun a series of capital 
improvements to meet the needs of our workforce. Upgrades and 
investments include a new canine facility and shooting ranges, which 
improve the capacity and capability to provide exceptional training. 
With continued long-term investments, the Secret Service can provide 
the type of immersive, real-life, integrated training that will befit 
our premier law enforcement personnel into the future.
                       a commitment to excellence
    A commitment to excellence requires a focus on both mission and 
employee. To that end, a number of external studies have examined 
agency capabilities and employee well-being. I would like to briefly 
summarize some of the studies and findings significant to our future as 
an agency.
    The independent Protective Mission Panel (PMP) was created in 2014 
by then-Secretary of Homeland Security Secretary Jeh Johnson to conduct 
an assessment of the security at the White House. The work of the PMP 
has led the Secret Service to examine and adopt best practices 
throughout organization in areas such as training, operations, and 
engagement with every member of the workforce.
    A year after the PMP issued its report, the Secret Service invited 
the panel members to meet with former Director Clancy to discuss the 
progress made and to obtain input to ensure the actions taken were 
consistent with the intent of their recommendations.
    In November 2016, the DHS Office of Inspector General (OIG) issued 
its report on the status of the Secret Service's implementation of the 
PMP recommendations and noted that fully addressing some will take 
considerable time, funding, and stakeholder support. The OIG stated:

``The Secret Service has clearly taken the PMP's recommendations 
seriously, which it has demonstrated by making a number of significant 
changes. Specifically, it has improved communication within the 
workforce, better articulated its budget needs, increased hiring, and 
committed to more training. Using funding appropriated for PMP 
initiatives, the Secret Service has also begun enhancing security and 
refreshing technology at the White House Complex.''

    Additionally, the DHS Office of Policy, in conjunction with the DHS 
Management Directorate, examined whether the Secret Service protective 
mission would benefit from shedding its investigative mission. The 
report found not only that the investigative mission should not be shed 
but also that it complements the protective mission:

``The review also found that the Secret Service's partnerships with the 
law enforcement community, academia, and the private sector are woven 
into the fabric of the agency. The USSS has strong, reciprocal 
relationships with its State and local law enforcement partners. The 
degree of trust and rapport that the USSS has built across the law 
enforcement community through task force participation and leadership, 
technical support, investigative partnerships, and training 
opportunities are critical to the support the Secret Service receives 
in turn from State and local law enforcement in carrying out its 
protective mission.''\1\
---------------------------------------------------------------------------
    \1\ Department of Homeland Security, Office of Policy, Review of 
the United States Secret Service Protective and Investigative Missions 
(January, 2017).

    This combined strength of our integrated missions also makes the 
Secret Service the world's foremost leader in protection and securing 
our Nation's financial infrastructure.
                           work/life balance
    As noted, the past 2 years have brought an unprecedented workload 
for our employees. In an effort to attain a better understanding of 
those work/life balance factors upon which we can improve, we sought 
the feedback of the National Academy of Public Administration (NAPA), 
which completed an assessment of our business transformation efforts in 
October 2016. Their findings helped us identify ways to build upon our 
completed actions. The critical analysis that the Academy Panel 
conducted discovered that:

`` . . . agency efforts are significant and wide ranging in terms of 
both scale and scope. The Secret Service has accomplished a substantial 
number of organizational, policy and process changes to transform the 
way the agency does business, to professionalize administrative, 
technical and management functions and to remedy numerous staffing and 
employee issues. Agency leadership has achieved these changes in a 
relatively short time, demonstrating its commitment to change.''\2\
---------------------------------------------------------------------------
    \2\ National Academy of Public Administration, United States Secret 
Service, Review of Organizational Change Efforts (October 2016).

    NAPA was able to study the revised structure of the Secret Service, 
instituted by the former director. more specifically, the agency 
appointed a senior-executive civilian to the position of chief 
operating officer. The agency also aligned several professional, 
experienced chief executive officers to report to the chief operating 
officer. Prior to September 2014, the Secret Service had nine 
directorates, with all but the Office of the Chief Counsel led by a 
Special Agent. The agency now has 12 directorates, of which six are 
headed by non-Special Agent personnel, including a chief human 
resources officer, a chief counsel, a chief technology officer, a chief 
financial officer, a chief strategy officer, and a chief information 
officer. Additionally, the agency now has a chief personnel research 
psychologist, a component acquisition executive, a director of 
communications, and an equal employment opportunity manager--all at the 
senior-executive service level. This new structure, which increased 
civilian professional executive appointments, enables the agency to 
better focus attention on both the operational mission and business 
needs.
    All of these reports and findings demonstrate our focus on 
improving the Secret Service in the spirit of the PMP's findings, not 
just in short-term actions, but as part of a sustained, long-term 
effort. Our work to address the PMP recommendations has also allowed us 
to appropriately address similar Congressional oversight concerns, 
which include changes in Secret Service leadership and structure, 
budgeting for our mission needs, and hiring and retaining personnel.
                           white house fence
    Among recommendations of the PMP was the replacement of the 
existing perimeter White House fence. With respect to this 
recommendation, the Secret Service and National Park Service have 
secured all approvals needed from the Commission on Fine Arts and the 
National Capital Planning Commission to construct the proposed new 
White House fence. I am further pleased to note that on May 5, 2017, 
the President signed into law H.R. 244, Consolidated Appropriations 
Act, 2017, which included the $50 million of funding needed to support 
construction of the new fence. The contract solicitation package is 
nearly complete and ready for advertisement. The Secret Service and 
National Park Service estimate that it will take 6 months to advertise 
and award. After contract award, site mobilization and offsite fence 
fabrication will take approximately 6 months.
                               conclusion
    In closing, I would like to thank former Director Joseph Clancy for 
the commitment he exhibited in his time as director and his nearly 3 
decades of dedication to the Secret Service. His focus on the agency's 
workforce and critical mission has resulted in the progress mentioned 
to date.
    I would also like to take this opportunity to thank recently 
retired Chief Kevin Simpson for his leadership of the Uniformed 
Division and for his almost 30 years of service.
    As we move forward, I will build upon the accomplishments noted 
previously to ensure that our workforce is afforded all of the 
leadership and resources necessary to accomplish the mission at the 
highest level. Thanks to the hard work, dedication, and many sacrifices 
of our employees around the world, we have had noteworthy successes 
when the demands of the mission were greatest. We will continue to 
uphold our core values of justice, duty, courage, honesty, and loyalty 
for ourselves and the American people.
    Chairman Katko, Ranking Member Watson-Coleman, and Members of the 
committee, this concludes my testimony. I welcome any questions you 
have at this time.

    Mr. Katko. Thank you, Director Alles, for your testimony 
and statement. We appreciate very much you being here today. I 
mean, I think I speak for Mrs. Watson Coleman, I know I do, 
when I say that we view this committee as something of a 
corroborative nature with you and cooperative nature instead of 
an adversarial nature. So going forward, I hope that we can 
continue to have these types of give-and-take so that we can 
really help the agency grow and do the things it needs to do to 
increase morale, which I think is a huge and important problem 
with the agency.
    Our second witness is Inspector General Roth, who currently 
serves as inspector general of the Department of Homeland 
Security. Prior to his appointment as inspector general, Mr. 
Roth served as the director of the Office of Criminal 
Investigations at the Food and Drug Administration and was 
chief of staff to the deputy attorney general. Way back when 
our paths crossed, we were both at Department of Justice in the 
Narcotics Section as baby prosecutors, and I have known Mr. 
Roth for quite a while.
    I must say, Mr. Roth, you serve a critical role within the 
Department of Homeland Security's function in ensuring that the 
proper performance and efficiencies are identified and the 
inefficiencies in the agency so we can correct them. So I 
commend what you do on a regular basis. We have had a long 
history with you testifying before our committee, and we have 
always been impressed with your thoroughness and your 
willingness to make sure you get all the issues out so we can 
make it a better agency both at the Homeland Security level and 
as the sublevels, like TSA and Secret Service and the others.
    So we recognize you for your testimony.

   STATEMENT OF JOHN ROTH, INSPECTOR GENERAL, OFFICE OF THE 
    INSPECTOR GENERAL, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Thank you, Chairman Katko, Ranking Member Watson 
Coleman, and Members of the subcommittee. Thanks for inviting 
me here today to testify about our work regarding the U.S. 
Secret Service and give you some insights into the challenges 
that they face.
    Simply stated, we believe that the Secret Service needs to 
continue to focus on management fundamentals, particularly how 
it relates to how it hires and manages people and how it 
manages and plans for its resources, including technology and 
information technology.
    Although we have seen encouraging progress, many of the 
implemented changes will require long-term leadership 
commitment and additional funding. We are encouraged by the 
fact that for the first time the Secret Service developed a 
mission-based budget for fiscal year 2018, which should start 
to address many of the causes of equipment and personnel 
shortfalls.
    However, we should not underestimate the challenges the 
Secret Service faces ahead and the time it will take to fix 
them. We estimate, for example, that it will require the Secret 
Service to have about 8,200 personnel by 2022, about 1,700 more 
than they currently have, in order to have sufficient personnel 
to conduct its mission, including the very critical element of 
training.
    We think that the President's request for fiscal 2018 for 
450 more personnel is a step in the right direction, but will 
be insufficient to meet current needs. Inadequate work force 
strength results in little or no training, mistakes due to work 
force fatigue, decreased quality of work life, poor morale, and 
increased attrition. Until the Secret Service can hire and 
retain a work force at or exceeding its work force staffing 
models, this will continue to be a problem.
    During our review of the 2014 White House fence jumping 
incident, for example, we found that staffing shortages for 
uniformed officers led to excessive overtime, inadequate 
training, fatigue, low morale, and attrition. An internal 
Secret Service report described similar effects on special 
agents. Likewise, during another audit in 2015, we observed two 
uniformed officers sleeping at their posts. Fatigue from 
travel, overtime shifts, and long hours contributed to these 
incidents.
    Compounding this problem is the Secret Service's inability 
to hire efficiently enough to overcome their attrition levels. 
In fiscal 2016, the Secret Service suffered more attrition than 
any time in its history, beating its 2015 level, which itself 
had also set a record. This kind of attrition is troubling in 
and of itself and is both a symptom and a cause of deeper 
Secret Service troubles.
    Since 2011, the Secret Service has been able to hire more 
people than they lost only in 1 year, and thus far this year 
are on track to lose more people due to attrition than they 
have been able to hire.
    Part of the problem is that the Secret Service is slow to 
hire. The last year we measured this, in 2015, it took 298 days 
to hire a special agent and 359 days to hire a uniformed 
officer.
    The Secret Service will be continually challenged by a lack 
of dedicated human resources staff, which lengthens Secret 
Service hiring processes. At the end of 2015, for example, 32 
percent of human resource positions at the Secret Service were 
vacant.
    Until they are able to get their hiring right, they will 
continue to be understaffed, which will exacerbate the 
problems, which will lead to greater attrition.
    Additionally, the Secret Service has had difficulty keeping 
pace with technological advancements. Instead of investing in 
cutting-edge technology and driving research and development, 
the Secret Service has relied on outdated systems and equipment 
with potentially dangerous consequences.
    For example, in a January 2016 report, we found that many 
of the radios were well beyond the recommended shelf life or 
service life and were difficult to repair. Then in April 2016, 
we reported that the confluence of technical problems with 
radios, security equipment, and notifications impeded the 
Secret Service's ability to apprehend an intruder who had 
jumped over the north fence and entered the White House.
    While the Secret Service has begun to address these issues, 
for example, by appointing civilians with specialized expertise 
to critical leadership roles, it will require an extended 
leadership commitment and a significant investment in resources 
to put the Secret Service back on the right path.
    We found similar issues with regard to the Secret Service's 
information technology. Special agents were able to access the 
personally identifiable information of House Oversight and 
Government Reform Committee Chairman Jason Chaffetz because the 
Secret Service was using old, insecure data systems with 
inadequate controls dating from the 1980's.
    This occurred because of the lack of Secret Service 
priority in IT management. Specifically, we found limited 
authority for the chief information officer, a lack of focus on 
IT management, vacancies in key IT leadership and staff 
positions, and inadequate training.
    The Secret Service has recently initiated steps to improve 
its IT management structure, which may give more priority to 
the leadership, policies, personnel, and training needed to 
ensure protections for sensitive systems and data.
    The Secret Service's statutory responsibilities leave no 
room for error. Fully implementing changes and resolving 
underlying issues plaguing the Secret Service will require a 
sustained commitment and depend heavily on adequate funding and 
staffing. We will continue to monitor the Secret Service's 
progress as it takes corrective actions to address 
vulnerabilities.
    Mr. Chairman, thank you for your invitation to testify 
today. I am happy to answer any questions you or other Members 
of the committee may have.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                              June 8, 2017
    Chairman Katko, Ranking Member Watson Coleman, and Members of the 
subcommittee:
    Thank you for inviting me here today to discuss our work relating 
to the United States Secret Service (Secret Service). We have conducted 
a number of investigations, audits, and inspections of Secret Service 
programs and operations and have made several recommendations. My 
testimony today will describe some of that work and discuss its 
implications.
    Our most recent oversight of the Secret Service has focused on 
three key operational areas: The Secret Service's actions to address 
recommendations of the Protective Mission Panel, difficulty in hiring 
law enforcement personnel, and challenges protecting sensitive case 
management systems and data.\1\ In general, the Secret Service has 
taken action to address the concerns and challenges identified by our 
office. Although we have seen encouraging progress, many of the 
implemented changes require long-term commitment and planning. We will 
continue to monitor the Secret Service's progress in implementing our 
recommendations over time.
---------------------------------------------------------------------------
    \1\ The Secret Service Has Taken Action to Address the 
Recommendations of the Protective Mission Panel, OIG-17-10 (November 
2016); DHS Is Slow to Hire Law Enforcement Personnel, OIG-17-05 
(October 2016); USSS Faces Challenges Protecting Sensitive Case 
Management Systems and Data, OIG-17-01 (October 2016).
---------------------------------------------------------------------------
 the secret service has taken action to address recommendations of the 
                        protective mission panel
    Following the September 19, 2014 White House fence-jumping 
incident, the Secretary of Homeland Security established the Protective 
Mission Panel (Panel) to undertake a broad independent review of the 
Secret Service's protection of the White House Complex (WHC). The Panel 
made 19 recommendations in its December 2014 Unclassified report. To 
address the Panel's findings and recommendations, we verified and 
evaluated actions the Secret Service has planned and taken since 
December 2014.
    One of the Panel's major criticisms was that the Secret Service had 
never developed a budget process that articulated its mission or a 
corresponding staffing and budget plan to meet its needs. Historically, 
as its operational tempo has increased, the Secret Service has often 
solved short-term problems at the expense of long-term ones, such as 
deferring technology upgrades to pay for operational travel, or paying 
large amounts of overtime rather than fixing the hiring process. To 
cure this, the Secret Service developed a ``mission-based budget'' for 
fiscal year 2018,\2\ which should start addressing many of the causes 
of equipment and personnel shortfalls.
---------------------------------------------------------------------------
    \2\ U.S. Secret Service Fiscal Year 2018 Congressional 
Justification.
---------------------------------------------------------------------------
    We estimate that it will require the Secret Service to have about 
8,225 personnel, known as ``full-time equivalents'' (FTE) by 2022, up 
from the fiscal year level of about 6,500, in order to have sufficient 
personnel to conduct its mission, including the very critical element 
of training. We think that the President's request for fiscal year for 
450 more personnel is a step in the right direction, but will be 
insufficient to meet current needs. Inadequate workforce strength 
results in little or no training, mistakes due to workforce fatigue, 
decreased quality of work life, poor morale, and increased attrition. 
Until the Secret Service can hire and retain a workforce at or 
exceeding its workforce staffing models, this will continue to be a 
problem. Compounding this problem is Secret Service's inability to hire 
efficiently, as I discuss below.
    The Panel also found--and we have confirmed through subsequent 
reviews--that the Secret Service has not kept pace with technological 
advancements. Instead of investing in cutting-edge technology and 
driving research and development, the Secret Service has relied on 
outdated systems and equipment, with potentially dangerous 
consequences. For example, in our January 2016 report on the Secret 
Service's radio systems, we found that many radios were well beyond 
their recommended service life and that many manufacturers had stopped 
making several of the major system components, making repairs 
difficult.\3\ Then, in April 2016, we reported that a confluence of 
technical problems with radios, security equipment, and notifications 
impeded the Secret Service's ability to apprehend an intruder who 
jumped over the North Fence and entered the White House in September 
2014.\4\ To update and enhance its technology, the Secret Service has 
committed funding to technology refreshes, is pursuing new technology, 
and has appointed civilians with specialized expertise to critical 
leadership roles, including Chief Information Officer and Head of the 
Office of Technical Development and Mission Support.
---------------------------------------------------------------------------
    \3\ U.S. Secret Service Needs to Upgrade its Radio Systems, OIG-16-
20 (January 2016).
    \4\ 2014 White House Fence Jumping Incident (Redacted), OIG-16-64 
(April 2016).
---------------------------------------------------------------------------
    The Panel also asserted the Secret Service is insular and does not 
regularly learn from its external partners. To address the Panel's 
recommendations to engage with Federal and international partners, the 
Secret Service hosted more joint training exercises; sought to obtain 
periodic, outside assessments of the threats to and strategies for 
protecting the WHC; and engaged foreign protective services through 
events. However, the Secret Service has not yet evaluated these 
partnerships or established regular exchanges of knowledge, and 
staffing constraints limit joint training, as well as partner outreach. 
Leading the Federal protective force community, obtaining periodic 
outside assessments, and coordinating with international partners will 
require sustained support from Secret Service leadership and the 
flexibility to carry out these actions in the face of protective 
mission demands.
    In short, the Secret Service has clearly taken the Panel's 
recommendations seriously, which it has demonstrated by making a number 
of significant changes.\5\ Specifically, the Secret Service improved 
communication within the workforce, better articulated its budget 
needs, increased hiring, and committed to more training of its 
workforce. Additionally, using funding appropriated for Panel 
initiatives, the Secret Service began enhancing security and refreshing 
technology at the WHC. It has also begun working with stakeholders on 
plans to construct a new outer fence surrounding the WHC.
---------------------------------------------------------------------------
    \5\ The Secret Service Has Taken Action to Address the 
Recommendations of the Protective Mission Panel, OIG-17-10 (November 
2016).
---------------------------------------------------------------------------
    Nevertheless, there continues to be room for improvement, and we 
made five recommendations in our Unclassified November 2016 report to 
further the Secret Service's progress in addressing the Panel's 
recommendations. That report makes additional recommendations that we 
believe will further strengthen the Secret Service. However, fully 
resolving underlying issues and implementing necessary changes will 
require a multi-year commitment and depend heavily on adequate funding 
and staffing. In addition, we recently issued a Classified report 
reviewing the Secret Service's actions to address the Panel's 
Classified recommendations.\6\
---------------------------------------------------------------------------
    \6\ The Secret Service Has Taken Action to Address the Classified 
Recommendations of the Protective Mission Panel (Unclassified Summary), 
OIG-17-47 (March 2017).
---------------------------------------------------------------------------
             dhs is slow to hire law enforcement personnel
    In October 2016, we issued a report on the results of our review of 
the law enforcement hiring processes at three components: U.S. Customs 
and Border Protection, U.S. Immigration and Customs Enforcement, and 
the Secret Service.\7\ We identified several issues with all three 
components' law enforcement hiring processes. Today, I will focus on 
those we identified at the Secret Service.
---------------------------------------------------------------------------
    \7\ DHS Is Slow to Hire Law Enforcement Personnel, OIG-17-05 
(October 2016).
---------------------------------------------------------------------------
    From fiscal years 2011 through 2015, the Secret Service came close 
to meeting or met authorized staffing levels for Special Agents and 
Uniformed Division (UD) Officers.

------------------------------------------------------------------------
    PERCENTAGE OF SECRET SERVICE AUTHORIZED LAW ENFORCEMENT POSITIONS
                      FILLED,  FISCAL YEARS 2011-15
-------------------------------------------------------------------------
                                Fiscal   Fiscal   Fiscal  Fiscal  Fiscal
                                 Year     Year     Year    Year    Year
                                 2011     2012     2013    2014    2015
------------------------------------------------------------------------
Special Agents...............  100%     97%      94%      100%    87%
UD Officers..................  100%     97%      93%      94%     87%
------------------------------------------------------------------------

    However, the Secret Service continues to be challenged by 
significant hiring delays. The table below shows the average number of 
days it took to hire Special Agents and UD Officers through job 
announcements issued in that fiscal year.

------------------------------------------------------------------------
       SECRET SERVICE AVERAGE DAYS-TO-HIRE, FISCAL YEARS 2011-15 *
-------------------------------------------------------------------------
                                Fiscal   Fiscal   Fiscal  Fiscal  Fiscal
                                 Year     Year     Year    Year    Year
                                 2011     2012     2013    2014    2015
------------------------------------------------------------------------
Special Agents...............  286      ----     482      441     298
UD Officers..................  ----     ----     294      272     359
------------------------------------------------------------------------
*  Dashes indicate the Secret Service did not hire personnel that fiscal
  year.

    The Secret Service will be continued to be challenged by a lack of 
dedicated human resources staff, which lengthens the Secret Service's 
hiring process. At the end of fiscal year 2015, for example, 32 percent 
of human resources positions at the Secret Service were vacant. Hiring 
freezes and attrition across the Department have also affected staffing 
levels of human resources personnel, resulting in a delay of applicant 
processing and hiring.
    Rather than employing one comprehensive automated applicant 
tracking system, the Secret Service uses two systems, which do not 
communicate with each other. The systems also require manual 
manipulation of data, making it difficult and cumbersome to process 
large numbers of applicants. In addition, applicants do not submit 
their Standard Form 86, Questionnaire for National Security Positions 
(SF-86), through the web-based, automated e-QIP system; instead they 
must email the document to Secret Service staff who print it out and 
review it manually. The electronic SF-86 only contains pages the 
applicant has completed, whereas the paper version is the entire 140-
page document, including pages not completed. One Secret Service 
official described the process as a ``paper mill,'' with boxes of 
applicant files filling an entire room.
    The Secret Service has made changes to improve its law enforcement 
hiring processes and shorten the amount of time it takes to hire 
personnel, but most of the changes are relatively new and their long-
term success cannot yet be measured. The Secret Service has established 
hiring events that allow applicants to complete several steps in the 
hiring process in one location. In fiscal year 2014, it took an average 
of 192 days to hire UD Officers who attended these events versus an 
average of 290 days for all other UD Officer applicants. In November 
2015, the Secret Service created the Applicant Coordinating Center to 
further monitor applicant hiring, specifically during the polygraph 
examination, medical examination, and background phases of the process.
    Despite improvements, the Secret Service continues to fall short of 
the Office of Personnel Management's (OPM) 80-day hiring goal. And 
while OPM's 80-day goal may be unrealistic in the law enforcement 
context because it does not account for additional steps in the law 
enforcement hiring process, the Secret Service also has failed to meet 
its own time-to-hire goals. In 2014, the Secret Service implemented a 
118-day hiring target for its law enforcement applicants, but on 
average failed to meet this time frame in fiscal year and fiscal year 
for both Special Agents and UD Officers. Although the Secret Service 
has improved its time-to-hire averages, it likely will never meet OPM's 
80-day time frame regardless of process improvements, and it will only 
be able to meet attainable internal targets.
    Compounding these hiring challenges is that increased attrition 
requires increased hiring. For example, the Secret Service was able to 
hire 487 people between October 1, 2015 and end of June, 2016. This is 
an impressive accomplishment, but largely eviscerated by the fact that 
during the same period 439 individuals left the Service, resulting in a 
net gain of only 48 people.
    We made five recommendations to the Department and components to 
improve the efficiency of law enforcement hiring practices, including 
that the director of the Secret Service: (1) Prioritize and dedicate 
full-time human resources, investigative, or polygraph personnel as 
needed; (2) establish an automated method to track applicants 
throughout the entire hiring process; and (3) adopt the e-QIP system 
for applicants to submit information for their SF-86 electronically. 
The Department and all three components concurred with our 
recommendations and are taking steps to address them. Based on the 
components' most recent responses to the final report, we consider all 
five recommendations resolved and open.
            The Impact of Understaffing on the Secret Service
    The inability to hire law enforcement personnel in a timely manner 
may lead to shortfalls in staffing, which can affect workforce 
productivity, as well as potentially disrupt mission-critical 
operations.
    During our review of the 2014 White House fence-jumping incident, 
we found that staffing shortages for UD Officers led to excessive 
overtime, inadequate training, fatigue, low morale, and attrition.\8\ 
An internal Secret Service report described similar effects on Special 
Agents. Similarly, during the course of an audit on Secret Service 
radio communications in 2015, we observed two UD officers sleeping at 
their posts. Fatigue from travel, overtime shifts, and long hours 
contributed to these incidents.\9\
---------------------------------------------------------------------------
    \8\ 2014 White House Fence Jumping Incident, OIG-16-64 (April 
2016).
    \9\ Management Alert--Secret Service Staffing and Scheduling 
Contributed to Officer Fatigue (October 2015).
---------------------------------------------------------------------------
    Due to understaffing, the Secret Service relies on its UD Officers 
to work overtime and cancel days off and leave. In fiscal year 2015, 
for example, UD Officers in the White House Branch worked an average of 
22.9 overtime hours per pay period and worked 71.7 percent of days off. 
Working excessive overtime and having days off routinely canceled has a 
long-term negative impact on UD Officers' alertness and preparedness. 
Having to work exceedingly strenuous hours leads to fatigue, stress, 
and low morale, which is unsustainable and results in attrition. 
Attrition in the Uniformed Division has been high; for example, in 
fiscal year 2015, 152 UD Officers were hired but 169 left.
    Additionally, due to the shortage in staffing many Secret Service 
personnel lack adequate training. Secret Service is not fully staffed 
to cover all shifts while others are in training. For Secret Service 
members a constant, rigorous, and innovative training regimen is a must 
because there is no room for error in their protective mission. A lack 
of training results in stale and degraded operational skills and could 
lead to incorrect or inadequate response during emergencies.
    The management issues related to Secret Service staffing are deeply 
embedded. These underlying problems are not subject to relatively quick 
fixes such as those applied to technical or structural problems. 
Overcoming these challenges will require diligence and the full 
commitment of Secret Service leadership. It is imperative, however, 
that the Secret Service tackles these more fundamental and persistent 
management issues or it risks being unable to respond adequately or 
accomplish its protective mission.
    challenges protecting sensitive case management systems and data
Background
    In 2015, our office conducted an investigation regarding 
allegations of improper access and distribution of House Oversight & 
Government Reform Chairman Chaffetz' personally identifiable 
information (PII) contained on the Secret Service mainframe, known as 
the Master Central Index (MCI). On September 25, 2015, we reported that 
45 Secret Service employees had accessed Chairman Chaffetz' sensitive 
PII on approximately 60 occasions. The information, including the 
Chairman's social security number and date of birth, was from when he 
applied for employment with the Secret Service in September 2003. Of 
the 45 employees, only 4 had a legitimate business need to access this 
information. The others who accessed the Chairman's record did so in 
violation of the Privacy Act of 1974, as well as DHS policy and USSS IT 
Rules of General Behavior.\10\
---------------------------------------------------------------------------
    \10\ Investigation Into the Improper Access and Distribution of 
Information Contained Within a Secret Service Data System (September 
2015).
---------------------------------------------------------------------------
    During our investigation, we planned a follow-up audit to determine 
whether adequate controls and data protections were in place on the 
MCI.
    In 1984, the Secret Service developed and implemented the MCI 
mainframe application as an essential system for use by Secret Service 
personnel in carrying out their law enforcement mission. An independent 
security review performed in 2007 by the National Security Agency (NSA) 
identified IT security vulnerabilities on all applications hosted on 
the Secret Service mainframe and advised corrective action. According 
to Secret Service personnel, a key deficiency of MCI was that once a 
user was granted access to the MCI, that user had access to all data 
within MCI--regardless of whether it was necessary for the user's role.
    In response to NSA's review, Secret Service initiated the Mainframe 
Application Refactoring project in 2011. Four years later, it completed 
final disassembly and removal of the mainframe in August and September 
2015 and migrated MCI data to the following five information systems:
  <bullet> Field Investigative Reporting System (FIRS)
  <bullet> Clearances, Logistics, Employees, Applicants, and 
        Recruitment (CLEAR)
  <bullet> Protective Threat Management System (PTMS)
  <bullet> Electronic Name Check System (eCheck)
  <bullet> Electronic Case Management System (eCase)
    MCI disassembly and data migration occurred just a few weeks prior 
to the start of our audit in September 2015. As a result, we focused 
our audit on these five systems.\11\
---------------------------------------------------------------------------
    \11\ USSS Faces Challenges Protecting Sensitive Case Management 
Systems and Data, OIG-17-01 (October 2016).
---------------------------------------------------------------------------
Ineffective Systems and Data Management
    Our audit disclosed that Secret Service did not have adequate 
protections in place on the systems to which MCI information was 
migrated. Specifically, we found:
  <bullet> Inadequate System Security Plans--These documents, which 
        provide an overview of system security requirements, were 
        inaccurate, incomplete, or in one case, nonexistent. As a 
        result, Secret Service had no reasonable assurance that 
        mission-critical case management and investigative information 
        was properly maintained and protected. Those relying on Secret 
        Service to protect their identities (e.g., informants) had no 
        assurance against unauthorized access or disclosure of their 
        information.
  <bullet> Systems with Expired Authorities to Operate (ATO)--Secret 
        Service was operating IT systems without valid ATOs documenting 
        senior-level approval to operate those systems. Lacking ATOs, 
        Secret Service had no reasonable assurance that effective 
        controls existed to protect the information stored and 
        processed on these systems.
  <bullet> Inadequate Access Controls--Secret Service lacked access 
        controls on the information systems we reviewed. Further, 
        policies did not address the principle of least privilege, 
        restricting system users to only those privileges needed for 
        the performance of authorized tasks. According to Secret 
        Service personnel, 5,414 employees had unfettered access to the 
        MCI application data before it was retired. These deficiencies 
        increased the likelihood that any user could gain unauthorized 
        and covert access to sensitive information, compromising its 
        confidentiality, integrity, and availability.
  <bullet> Inadequate Audit Controls--These controls were not fully 
        implemented, hindering the Service's ability to detect unusual 
        user activities and/or provide appropriate response to 
        potential or actual security risks, anomalies, or attacks. Such 
        deficiencies significantly hindered Secret Service's ability to 
        reconcile system events with the responsible individuals, 
        rendering them unable to conduct appropriate incident response 
        in the event of cyber security incidents or threats.
  <bullet> Noncompliance with Logical Access Requirements--Secret 
        Service had not fully implemented Personal Identity 
        Verification (PIV) cards for logical access to Secret Service 
        IT systems as required. Approximately 3 percent of privileged 
        users and 99 percent of non-privileged users were not using PIV 
        cards to access information systems, hindering USSS' ability to 
        limit system and data access to only authorized users with a 
        legitimate need.
  <bullet> Lack of Privacy Protections--Despite National Institute of 
        Standards and Technology and DHS privacy protection 
        requirements, Secret Service had not designated a full-time 
        component privacy officer reporting directly to the Secret 
        Service Director. Secret Service privacy documentation was 
        incomplete, out-of-date, or missing documented assessments on 
        how privacy controls were implemented. Secret Service had not 
        published component-specific policies and procedures to comply 
        with DHS policy. Also, responsible system owners and security 
        personnel (i.e., Information System Security Officers) were 
        unaware of their responsibilities for documenting and 
        implementing privacy protections on Secret Service systems. 
        Ineffective privacy leadership and practices increased the 
        likelihood of serious breaches to PII, resulting in identify 
        theft or worse, personal harm to employees, their families, 
        informants working for Secret Service, or subjects of Secret 
        Service investigations.
  <bullet> Records Retention--Secret Service retained job applicant 
        data on information systems longer than was relevant and 
        necessary, in violation of the Privacy Act of 1974. Many 
        ``rejected'' and ``no longer interested'' applications were 
        more than 5 years old, including records up to 14 years old. In 
        January 2016, Secret Service officials advised us that they 
        were working toward implementing a new 2-year/5-year data 
        retention protocol.
IT Management Has Not Been a Priority
    The systems and data management problems we identified can be 
attributed to a lack of Secret Service priority on IT management. 
Specifically, our audit disclosed:
  <bullet> Limited CIO Authority and Responsibility--Historically, the 
        Secret Service CIO has not been effectively positioned to 
        provide needed IT oversight. In 1988, Secret Service 
        established the Information Resources Management Division 
        (IRMD) to manage and support the investigative and protective 
        operations and associated administrative functions of the 
        agency from an IT perspective. In 2006, senior management 
        decided to remove the incumbent CIO from heading IRMD and put a 
        Special Agent in his place. The Special Agent, with limited IT 
        management and leadership experience, became responsible for a 
        technology division with a diverse portfolio of IT services, 
        programs, acquisitions, and operational elements. In a culture 
        in which Special Agents are reluctant to relinquish control, 
        the split contributed significantly to a lack of IT leadership 
        and inability to build a strong technology program within the 
        Secret Service.
  <bullet> Lack of Focus on IT Policy Management--Inadequate attention 
        was given to keeping critical Secret Service IT policies 
        updated. Key guidance had not been updated since 1992 when 
        Secret Service was part of the Department of the Treasury. 
        Outdated IT policies leave the organization hindered in its 
        ability to implement and enforce IT system security 
        requirements.
  <bullet> Key IT Leadership Vacancies--Key positions responsible for 
        the management of IT resources and assets were not filled. Some 
        vacancies lasted for almost 1 year; other vacancies still 
        existed at the time of our audit. For example, for almost a 
        year, from December 2014 to November 2015, Secret Service 
        lacked a full-time CIO. An acting Chief Information Security 
        Officer (CISO) departed in September 2015; as of January 2016 
        the position was still vacant although the agency hired a 
        Deputy CISO that same month. Further, Secret Service did not 
        have a full-time Information System Security Manager, critical 
        to ensuring that the organization's information security 
        program is implemented and maintained.
  <bullet> Vacant IT Staff Positions--As of December 2015, OCIO 
        reported having 139 employees and 58 vacancies, which is a 
        staff vacancy rate of 29 percent. Secret Service relied heavily 
        on contractors to fill IT security positions rather than on 
        Federal employees, as background checks for contractors did not 
        require polygraphs. However, contractor Information System 
        Security Officers felt they were not getting sufficient 
        guidance to perform their responsibilities.
  <bullet> Inadequate IT Training--Secret Service personnel did not 
        receive adequate IT training. For example, not all employees 
        and contractors completed mandatory IT security awareness, 
        specialized role-based training, or privacy training. As a 
        result, many employees lacked knowledge of their specific roles 
        and responsibilities. For fiscal year 2015, we found that only 
        85 percent of Secret Service's employee population had 
        completed the required IT security awareness training.
Recent Steps to Improve IT Management
    Secret Service recently initiated steps to improve its IT 
management structure, which may give more priority to the leadership, 
policies, personnel, and training needed to ensure protections for 
sensitive systems and data. Specifically, in December 2015, the Secret 
Service Director announced component-wide that the new CIO was put back 
in charge of IRMD, giving him control of all IT assets. Additionally, 
five new divisions were established to delineate OCIO functions.
    These changes are initial steps to address the various IT 
deficiencies we identified. However, it will take time for these 
improvements to be fully implemented and demonstrate effectiveness. 
Until then, the potential for incidents similar to the breach of 
Chairman Chaffetz' information in March 2015 remain. Any loss, theft, 
corruption, destruction, or unavailability of Law Enforcement Sensitive 
data or PII could have grave adverse effects on Secret Service's 
ability to protect its employees, stakeholders, or the general public.
    We should not underestimate the challenges ahead. While the Secret 
Service has made substantial gains in securing its networks, according 
to the self-assessment scoring required by the Federal Information 
Security Management Act, it still needs to work on securing that each 
of its IT systems is properly authorized and protected from external 
threat.
              previous allegations of employee misconduct
    Over the past several years, as part of our independent oversight 
effort, we have investigated various incidents involving allegations of 
misconduct by Secret Service employees.\12\
---------------------------------------------------------------------------
    \12\ See, e.g. Investigation Into the Improper Access and 
Distribution of Information Contained Within a Secret Service Data 
System (September 2015); Investigation Into the Incident at the White 
House Complex on March 4, 2015 (May 2015); Allegations of Misuse of 
United States Secret Service Resources (October 2014).
---------------------------------------------------------------------------
    For example:
  <bullet> We investigated allegations that, in April 2012, during 
        preparations for President Obama' visit to Cartagena, Colombia, 
        Secret Service agents solicited prostitutes and engaged in 
        other misconduct. As part of our investigation, we conducted 
        283 interviews of 251 Secret Service personnel. Based on our 
        interviews and review of records, we identified 13 Secret 
        Service employees who had personal encounters with female 
        Colombian nationals consistent with the misconduct reported. We 
        determined that one of the female Colombian nationals involved 
        in the incident was known to the intelligence community. 
        However, we found no evidence that the actions of Secret 
        Service personnel had compromised any sensitive information.
  <bullet> We reviewed the actions of two Secret Service agents who on 
        the evening of March 4, 2015, had entered an area of the White 
        House Complex that had been secured as a result of a suspicious 
        package. We concluded that it was more likely than not that 
        both agents' judgment was impaired by alcohol. We found that, 
        notwithstanding their denials, both agents were observed by 
        uniformed officers as ``not right,'' and ``not making sense,'' 
        had just spent the previous 5 hours in a restaurant/bar in 
        which one ran up a significant bar tab, and that they drove 
        into a crime scene inches from what the rest of the Secret 
        Service was treating as a potential explosive device and which, 
        under different circumstances, could have endangered their own 
        lives and those of the UD officers responding. While each agent 
        had a duty to report the incident to his superior, neither did 
        do so. We found that their failure to do so reflected either 
        poor judgment or an affirmative desire to hide their 
        activities.
    The Secret Service has certainly taken steps to address these and 
similar challenges, but not always successfully. These persistent 
challenges may not be easy to resolve through expeditious action, such 
as suspending employees and issuing new guidance. They may require more 
fundamental change that addresses the root cause of the misconduct.
    As a result of the Cartagena incident, in December 2013, we issued 
a report on our review of the Secret Service's efforts to identify, 
mitigate, and address instances of misconduct and inappropriate 
behavior. In our report, we described a situation in which many 
employees were hesitant to report off-duty misconduct either because of 
fear that they would be retaliated against or because they felt 
management would do nothing about it.\13\ For example, in response to 
one survey question, 56 percent of electronic survey respondents 
indicated that they could report misconduct without fear of 
retaliation, meaning that almost half of the workforce may have feared 
retaliation for reporting misconduct.
---------------------------------------------------------------------------
    \13\ Adequacy of USSS Efforts to Identify, Mitigate, and Address 
Instances of Misconduct and Inappropriate Behavior, OIG 14-20 (December 
2013).
---------------------------------------------------------------------------
    As a result of our findings, the Secret Service created a table of 
penalties for determining appropriate corrective, disciplinary, or 
adverse actions for common offenses and established a centralized 
process within headquarters for determining and implementing discipline 
for employee misconduct.
              on-going oig oversight of the secret service
    Our office will continue to help the Secret Service meet its 
critical mission through independent and objective audits, inspections, 
and investigations. We plan to publish several DHS-wide audits in 
fiscal year that will include reviews of the Secret Service, including:
  <bullet> DHS's Use of Polygraphs in the Hiring Process Audit.--We are 
        conducting a Department-wide audit of the use of polygraphs and 
        USSS is part of that audit. The purpose of this audit is to 
        determine whether DHS' polygraph examinations are an effective 
        tool for screening new employees during the hiring process.
  <bullet> DHS Conduct & Discipline.--We are currently conducting a 
        Department-wide audit of DHS's disciplinary processes, which 
        focuses on the depth and breadth of employees' perceptions and 
        attitudes about misconduct and the application of discipline, 
        DHS's established rules of conduct, and the application of 
        discipline across the Department.
                               conclusion
    The Secret Service's statutory responsibility to protect the 
President, other dignitaries, and events, as well as investigate 
financial and cyber crimes to help preserve the integrity of the 
Nation's economy, leaves little, if any, room for error. As our audits 
and inspections have demonstrated, to achieve its mission, the Secret 
Service needs to continue working to improve its operations and 
programs. Although it has planned and taken actions to address the 
Protective Mission Panel's recommendations, fully implementing changes 
and resolving underlying issues will require the Secret Service's 
sustained commitment and depend heavily on adequate funding and 
staffing. We will continue to monitor the Secret Service's progress as 
it takes corrective actions to address vulnerabilities.
    Mr. Chairman, thank you for inviting me to testify here today. I 
look forward to discussing our work with you and the Members of the 
subcommittee.

    Mr. Katko. Thank you, Mr. Roth for your testimony. We 
definitely appreciate you taking time out of your schedule to 
be here today. We know that your time, along with Director 
Alles' time, is very valuable, but I think this is also 
important, what we are doing here today.
    The Chair now recognizes myself for 5 minutes of questions. 
I will note, since there is only a relatively small size of 
panel, that we will have some flexibility with respect to the 
amount of time we use.
    So, first of all, I want to do something a little 
different. I normally don't do this. But I think it is pretty 
apparent what the primary issue is with respect to Secret 
Service, and that is the morale issue, which is tied to 
manpower and manpower-type issues. They are just stretched too 
thin.
    So before I came here, I was a Federal prosecutor and doing 
organized crime cases for 20 years, and I routinely came across 
Secret Service agents in the field. I was always struck by the 
fact that they would be doing criminal cases, doing good 
criminal cases, and all of a sudden they are yanked out to do a 
protective detail. So they had these bifurcated 
responsibilities that were quite difficult.
    I also was mindful of the fact that their time constraints 
were unlike any other agency I have ever encountered.
    So I went back and kind of canvassed my old pals, if you 
will, and got input from them. So I just want to read to you 
some of the input that I got from them in the field, because I 
think what we really need to do is think of it and look at this 
through the prism of the guys and gals on the front line and 
see what they are experiencing, what their thought process is 
now, and maybe we can generate some discussion from that. I am 
just going to go no particular order of importance.
    No. 1, the new agents we have hired in the past 3 years, or 
in the recent past, about 40 percent leave within 3 years. So 
there are probably only 1,200 agents in the field offices, and 
we are getting crushed. This does not include agents on the 
detail to the District of Columbia. We have about a total of 
2,000 to 2,200 agents. Our numbers are way down. The 3,200 
administration staff, it includes support staff. We are top 
heavy with 14 and 15 bosses. I am not sure which branch 
particularly they are referring to.
    We need to be under a different retirement system. We are 
under the FERS and we should be under the Coast Guard 
retirement system. This would differentiate us from other 
agencies, boost morale, and maybe we could hire more people. 
You can't do the job for more than 20 years at the pace we are 
going.
    Another one: They have to lift the max out of the pay cap. 
I made 104 hours of overtime in the month of April and will 
only see 16 hours of that money for the month. The rest I won't 
see. Anything over 162 hours now through the rest of the year, 
I will never see a penny of that money.
    The hiring push over the last 3 years has netted only 5 
agents total. That is pretty stunning if that is true. Between 
people retiring, leaving the job in droves and new hires, we 
have netted only five agents.
    Morale is terrible, and we are all constantly working long 
hours, traveling all the time away from home and not getting 
compensated for it. There is no work-life balance, and the 
other 1,811 Federal agencies have much more balance than we do. 
There is a major disconnect between upper management in the 
District of Columbia and what is really going on in the field.
    From 1997--this is particularly troubling to me--from 1997 
to 2000, the Secret Service hired quite a bit of agents. There 
are about 450 to 550 agents that can retire within the next 1 
to 3 years. If you don't give them some incentive to stay, they 
are going to retire. That is a huge number of agents and 
experience leaving the Service at once and will cause a very 
large void.
    By no means are these exclusive to some of the comments 
that I heard, but they do kind of highlight some of the things 
I did hear here. This is not here to--I didn't do that to set 
up a series of complaints or series of questions, but more to 
generate discussion about how to address the problem. I think 
we have all kind-of identified it to some extent, but the brass 
tacks gets down to what do you need.
    So with that, I will just ask you, Director.
    Mr. Alles. So, thank you, sir. Actually, I was just talking 
with Inspector General Roth before. You know, I see my key--the 
No. 1 thing I have to work on is the area of leadership. So all 
these things stem out of that particular area. Morale, 
resources, hiring, all those, I think, come from that common 
point. So that is not to say that we don't--so everything you 
have said, I don't have any--I am not sure exactly on the 
numbers he said, but all of rest of it sounds pretty 
consistent.
    I mean, one of the impressive things about the agency is 
they get the job done no matter what. As I tell them, that is 
good and that is bad. It is good that they are doing the 
mission. The bad part is, is where is the work-life balance for 
the agency, for our Uniformed Division officers and our special 
agents, and it is generally not there. Then you throw on top of 
that the pay cap issue. As I say, how fair is it to ask people 
to work for free, which is basically what happens. When they 
hit that biweekly cap, they keep on working, and they get the 
mission done no matter what. So----
    Mr. Katko. Right. Just to interrupt you there for a moment. 
It is stunning to me that this is early June, and this person 
that gave me that information has already used up all and any 
overtime. So for the rest of the year when he is working 
hundreds of hours of overtime, sometimes on a monthly--
certainly on a monthly basis, there will be zero compensation 
for that. I don't know how that doesn't affect you or how it 
doesn't affect the performance of some people.
    But you are right, you are absolutely right, it is 
remarkable how good a job they do under these circumstances. So 
please continue.
    Mr. Alles. So I think, as you are saying, I am sure the 
entire committee is implying too, we owe it to them not only to 
pay them but to give them better working conditions than they 
have now.
    Part of that--a lot of that revolves around leadership, 
which is going to affect morale. I have got to find a way to 
stem attrition. I can't do that if they don't see any hope for 
the future. So as long as they see them working, as I like to 
say over at the White House, 6 days a weeks, 12 hours a day, 
and then having their days off canceled, we are going to make 
little progress.
    In the field, estimating this year, we are going to have 
about 500 to 700 agents that are, again, going to exceed this 
pay cap. So again, I am going to be making people work for 
tree. They have to do the mission. They do the mission. But I 
really view that as unfair in an area we need to aggressively 
work on correcting.
    So I think from our standpoint is it is a leadership aspect 
in terms of affecting their morale, it is trying to hire more 
agents and stem the attrition.
    The hiring actually is going well. We actually, hopefully--
Mr. Roth was laying out some numbers there--we will reach 6,800 
this year. We are making better progress than we have in the 
past. All of the classes are being filled.
    But again, as highlighted by the committee and also by the 
inspector general, there are issues on attrition. We have to 
address those. Part of that is engagement with the work force. 
That is my responsibility to get out there and make sure they 
understand we recognize their problems and we are going to 
correct those issues, that we are not just standing idly by 
while it happens.
    But in the mean time, it is not something that is 
necessarily a quick fix either. So it is a continued pressure 
against that. We recognize resource deficiencies mentioned by 
the inspector general. We estimate, generally, we are probably 
$200 to $300 million a year for what we need to do to actually 
hire people, have the correct technology in place. He talked 
about IT issues. Certainly don't disagree with any of those 
things.
    So some of those do revolve around resource issues, but 
getting good programs in place, having good leadership to lay 
down those programs and execute those programs are all critical 
to fundamentally resetting where the Secret Service is.
    Mr. Katko. Thank you, General. There is going to be--I keep 
calling you General, Director. We will be going back and forth. 
It will take a while to get used to your--not calling you by 
your old title. But we definitely have to get back with more of 
this, and I trust my colleagues will do that you in their 
questions.
    But I want to hear from Mr. Roth as well on this. Quite 
frankly, what we do need, though, is basically a tick list of 
what we really need.
    So with that, I will let you tell it.
    Mr. Roth. I mean, sure. I think it is in two things. One is 
money. Two is a focus on management fundamentals. So, for 
example, when we took a look at law enforcement hiring, and we 
did a report that was issued a couple of months ago, we looked 
at Secret Service and we looked at ICE and CBP.
    When we asked for data, for example, they couldn't give us 
real-time data as to how many people were in the pipeline, 
where they were, because they didn't have any data systems that 
would allow them to track the kind of hiring they need. This is 
something that is fundamental and basic in any private 
corporation or private industry to be able to streamline the 
kinds of data systems that you have.
    So, for example, Secret Service has two different data 
systems that don't talk to each other. So there has to be a 
manual input of data from one system to the other.
    Likewise, they have the SF-86, the security clearance form 
that most agencies have filed electronically. Secret Service 
doesn't have that capability. So people fill that out. They 
email it in a pdf. That pdf then gets printed by the Secret 
Service and then reviewed manually. It is just not a very 
efficient system.
    What we found also is that they had a shortfall, and it 
seems trivial but it is not trivial, of personnel specialists. 
These are the folks that have to sort-of write the position 
descriptions, get the best qualified list together, get the 
kinds of information out so that Secret Service can hire.
    I would just say that the information that you have given, 
Congressman Katko, is consistent with the data that we have 
seen, that it is an uphill battle to hire more than they lose 
and they are in a vicious cycle, because the more they lose, 
the more they have to work their current personnel; the more 
they work their current personnel, the more that they lose. 
So----
    Mr. Katko. Let me just interrupt you for a second. That is 
what worries me so much about this big ball just coming near 
retirement age, retirement at 2017 to 2020, that pipeline that 
is coming up in the next couple of years. You are talking about 
almost a quarter of the front-line agents that do the 
protection. That is frightening to me. So if you can address 
that as well.
    Mr. Roth. I think that is right. So if you are hiring 400 
or 500 people a year, that is great. But if those get 
eviscerated by losing 400 or 500 people a year, then you need 
to sort of rethink how it is that you hire folks.
    Again, I am encouraged by the fact that Secret Service now 
for the first time has a work force that is not simply special 
agents doing technical work. So they have a CIO, who is 
somebody who specializes in that and is not just simply a 
special agent who got promoted to that; somebody in personnel 
the same way. They have an individual for management who is on 
the same level as the deputy director.
    So they are doing all the rights things. It is just a race 
to try to be able to get the efficiencies that they need, get 
the resources that they need to do the job.
    Mr. Katko. Thank you, Mr. Roth.
    Of course, there is much more I could follow up on, but I 
think it is time for the Chair to recognize the gentlewoman 
from New Jersey, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    It is clear that a really big issue that the Secret Service 
has, in addition to many others--challenges, I should say--is 
the lack of resources, human resources in particular. So I am 
struck by a couple of questions that I need to ask to get some 
clarification on and to see whether or not this is having a 
different impact on the Secret Service than you have 
experienced, the agency has experienced in the past.
    For instance, I know that we have a responsibility to Trump 
Tower, to protect Trump Tower when the President is there. We 
have an additional and different responsibility here, I think, 
because the First Lady stays there and uses that as her primary 
residence. I believe that that is somewhat unprecedented to 
have the First Lady live someplace other than her husband, the 
President. But that places an additional strain on your already 
strained resources both financial and personnel. So, Mr. Alles, 
what are we doing to acknowledge that and prepare for that?
    In that same vein, I also know--you might want to write 
these questions down--I also know that we now have a 
responsibility and a legitimate one to provide protective 
service to almost triple the number of people associated with 
the First Family than we have experienced since 1988 and that 
there are some unique opportunities there to provide protection 
as it relates to some of the older children, the adult 
children, going around the world and going around the country 
and advancing their business opportunities that are really 
still connected to this President, because he hasn't really 
divested himself of those.
    I would like to know the kind of relationship we have, and 
are we being reimbursed in any way, shape, or form for that 
kind of traveling and protection that is taking place? Do you 
distinguish personal travel from professional travel?
    Then last--it is only a three-part question, I know it 
sounds like it is going on forever--but the last part has to do 
with do we have any idea what kind of challenge the President's 
trips to Mar-a-Lago and other golf courses on a very, very 
routine basis will have on your resources as they exist now, as 
they are proposed in this upcoming budget, and should we be 
looking to provide you additional resources in order to meet 
what seems to be an increased challenge?
    So if you would just start with those three areas. I do 
have some other questions.
    Mr. Alles. OK. Very well, ma'am.
    I think I would start off by saying, clearly, that the 
Trump Tower has been designated as one of his residences. It is 
not unusual, I would say, and you would--we would understand 
this as parents, they wanted their son to finish the school 
year in New York, and the plan is to move down this summer, and 
that will alleviate some of the pressure up there in that area.
    Mrs. Watson Coleman. OK. Let me stop you.
    Mr. Alles. Sure.
    Mrs. Watson Coleman. Let me ask you this question, then. So 
you won't be providing this 24-hour security, 365 days a year 
at the Trump Tower? You will only be providing it when the 
family, the President's family are there, and they will be 
there when they are not at the White House or Mar-a-Lago?
    Mr. Alles. We will still, because the sons we be there, we 
will still be providing security. The levels of it we are going 
to look at it how we can modify those levels.
    Mrs. Watson Coleman. You say the sons or the----
    Mr. Alles. Yes, the sons that reside at the tower. That is 
where they work out of. So that will continue. But I just--
anyways, but the First Lady and their youngest son will move 
down here this summer, which will alleviate some of the 
pressure on that.
    But I will just mention also, I mean, when it comes to 
these--to the residences and the trips and those things, this 
is all in statute, ma'am. I am simply doing what I am required 
to do by law, and the agency is, and I have no flexibility 
there whatsoever. So I really don't have the option to, you 
know, not to resource it or make requests for that. I mean, we 
are doing that as the Presidential protection mission. That is 
what required in statute.
    I would just amplify, in the post-9/11 era, in the era of 
the London Bridge and Manchester, the threat environment, of 
course, is not becoming more benign, it is a more serious 
threat environment, and we have to think about that as it 
affects his entire family, we need to protect as we have to. We 
have to cover.
    Mrs. Watson Coleman. So we will continue to provide this 
kind of protection at Trump Tower, because that is where the 
Trump business efforts are taking place. Is that what you just 
said?
    Mr. Alles. Again, it wouldn't really matter if it is a 
Trump business. The sons are there, and by statute it 
requires----
    Mrs. Watson Coleman. But it is a Trump business.
    Mr. Alles. I understand. I am just saying, ma'am, if there 
was no business, by statute, we would still protect the sons. 
That is what is required by law.
    Mrs. Watson Coleman. OK. Do you have a number? Do you have 
any idea what it costs us to rent the space that we have 
created as a protection in the Trump Tower?
    Mr. Alles. I do not off the top of my head. I would have to 
take it as a record----
    Mrs. Watson Coleman. All right. Could you possibly provide 
that for us?
    Mr. Alles. We can take that as a record question.
    Mrs. Watson Coleman. OK.
    Mr. Roth, this is something that I raised yesterday. I 
guess--I have no idea when it was. Last time we had a hearing 
with CHS on the budget Secretary Kelly was in. I am very 
concerned that your budget is being reduced by 9 percent. I 
asked the Secretary about that, and he said, well, it is not 
going to interfere with anything that you are doing or anybody 
is doing in that space. But I would like to know from your 
perspective, what does that 9 percent reduction represent in 
your ability to do your job and the resources necessary to do 
it?
    Mr. Roth. It is about, by our calculation, about a 10 
percent reduction from 17 services to what the President 
proposes in fiscal 2018. That represents about a 15 percent 
decrease in the number of people that we would have. So it will 
decrease the tempo of the kinds of audits, inspections, and 
investigations we will do, at the same that the Department 
itself is growing by about 6 percent. So we are going down 
while the Department is going up.
    They are going up in very high-risk areas. Customs and 
Border Protection. Increased infrastructure investment in the 
Southwest Border barrier. Those kinds of things which really 
are meat and potatoes, what we spend a lot of time looking at, 
because they are risky areas for the Department, we will be 
unable to do anything with.
    Likewise, in the cyber area, our desire is to increase our 
oversight over how it is that DHS does cyber both within the 
Department as well as Government-wide. We will be unable to do 
that work as well. So it will have a significant impact on what 
we will do, assuming that the President's budget becomes law.
    Mrs. Watson Coleman. Thank you.
    Mr. Alles, one of the things that we talked about is the 
kind of training to make sure that our officers on whatever 
level have the kind of experiences and scenarios that prepare 
them for the breach that happened at the White House. I believe 
that there was a proposal and a request for some kind of a 
White House mock-up to be used through the training center, 
Rowley Training Center. Do I have that correct?
    Mr. Alles. Yes, ma'am. That is correct.
    Mrs. Watson Coleman. What is your opinion about it being 
eliminated from the budget request? How essential do you think 
it is in terms of keeping our President and his family and the 
people that are there safe from these kinds of intrusions?
    Mr. Alles. I mean, like other things, it is resource 
priorities. It is one that we have requested now as an unfunded 
item. But we view that as important to the training of our 
agents overall, otherwise we have to try to run these scenarios 
on the White House grounds. That has severe limitations, 
because we are working with actual conditions, alarms, people 
that are actually armed with live weapons. So we have to 
approach that very gently, I guess is how I will say it.
    So that training center would absolutely help us run 
scenarios, particular scenarios that might be more complex 
attack scenarios, in a more effective way. So it is clearly 
something we will continue to ask the Department for in terms 
of funding. We have scoped out exactly what the amounts that we 
need for that are, and we would like to see that funded in the 
future.
    Mrs. Watson Coleman. Thank you. I am just going to wrap up 
here, but I would just like to ask him a general question.
    In addition to asking the questions about the costs 
associated with the protection at the Trump Tower, what we are 
paying the Trump Organization as a rent in order to do this, 
things of that nature, in general, are you comfortable with the 
budget request as it responds to what you see as your needs in 
order to ensure that you have good morale, good employees, 
happy employees, effective employees, and sufficient staff to 
do its job? That is No. 1.
    No. 2, I guess this is for you, Mr. Roth, since I am just 
going to sneak this in, what is it specifically that we do at 
the Secret Service in the hiring practice that slows down the 
process that is being done better and could be done even 
better?
    With that, I would yield back to my Chairman after you 
answer these.
    Mr. Alles. So, ma'am, I would comment that I think the 
budget is requesting the resources we need, which will help in 
terms of hiring, which will affect morale. But I would also 
say, as I indicated earlier, that as we look at our total 
organization, what we need to purchase to do our protection 
mission, our investigation mission more effectively, we are 
generally running on $200 to $300 million a year short of what 
would be required there. Again, like other parts of the 
agencies, we have to compete in the Department for funding. 
That is our job to continue to do that and justify our 
requirements.
    Mrs. Watson Coleman. Right now you are kind of robbing 
Peter to pay Paul. You are taking people off of their type of 
investigation, criminal investigation work, to put them on some 
protection work. So that is negatively impacting your 
investigation, criminal investigation work?
    Mr. Alles. Right. So over time our investigations drop when 
we have to do this much protection. So, clearly, raising the 
number of agents we have in the organization, also raising the 
number of Uniformed Division officers in the agency, would help 
us greatly.
    Mrs. Watson Coleman. Mr. Roth.
    Mr. Roth. With regard to their budget, we do not think the 
budget is sufficient. I know that Mr. Alles is constrained to 
support the President's budget. I am not similarly constrained 
because of the IG Act. We do not think it is sufficient. We 
think that it is--they need more personnel.
    With regard to what can they do better, we wrote a report 
about law enforcement hiring that puts forth specific 
recommendations as to what the Secret Service can do. But a 
couple of things is, one, they need to ensure that they have a 
polygraphy staff that is well-staffed, and it is not a 
collateral duty, and they have a full court press to ensure 
that that is not a bottleneck.
    They need to modernize their systems, their information 
technology systems, when it comes to hiring to ensure they are 
not doing sort of duplicative work or having data systems that 
don't talk to each other, so there is a lot of manual entry, 
those kinds of things.
    Then they need to ensure that they have a full staff of 
personnel specialists. Frankly, you can't overstaff this, given 
sort-of the full press that they are going to have to do to get 
the kind of personnel on board in a fast manner.
    So those would be our recommendations. In that report, the 
Secret Service has agreed with our recommendations and is 
moving forward with those.
    Mrs. Watson Coleman. Thank you. I need you to know that it 
is important for us to work together to make sure that you have 
the resources that you need to keep our First Family safe as 
well as to do the kind of investigations that you do in your 
business. Thank you very much.
    Thank you, Mr. Chairman.
    With that, I want to ask unanimous consent for Ms. Sheila 
Jackson Lee to be on our panel, to be recognized and to be able 
to ask questions.
    Mr. Katko. Without objection, so ordered.
    Mrs. Watson Coleman. Thank you.
    Ms. Jackson Lee. Thank you.
    Mr. Katko. Well, thank you, Mrs. Watson Coleman.
    The Chairman will now recognize other Members of the 
committee for questions they may wish to ask the witness. In 
accordance with our committee rules and practice, I plan to 
recognize Members who were present at the start of the hearing 
by seniority on the subcommittee. Those coming in later would 
be recognized in the order of arrival.
    The Chair would now recognize the gentleman from 
Pennsylvania, Mr. Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Mr. Alles, Mr. Roth, thank you for coming, and also thank 
you for the work you do. It is not easy. Coming from a Federal 
law enforcement background myself here, I want to share with 
you a few things.
    No. 1, it is easy to criticize agencies like the Secret 
Service, but these are men and women that you represent that 
make a conscious decision to put their life on the line in 
defense of others. So please thank them on behalf of our 
committee.
    If I could just offer one piece of advice from the agents' 
perspectives, focus on morale, because it is very, very 
important. I can't think of a more important job as leaders of 
an organization than to watch the morale of your agents, 
because the higher the morale, the safer we are as a country.
    I want to focus on the budget, which Mrs. Watson Coleman 
had addressed. The overall Department's budget is going up, one 
of the few in the proposed budget. However, certain subsets are 
going down, most notably FEMA as well as the OIG.
    So, Mr. Roth, I believe that certain outlays of money are 
investments and not expenses, because they ultimately result in 
a cost savings. The mission of the OIG is to cut back on fraud, 
waste, and abuse, which presumably would save the agency money 
and make it more efficient in the long run.
    What specific programs--you started to address this--what 
programs will you be making the decision to cut back on, since 
you are going to be managing that budget? What specifically is 
going to be cut back so that we know what we can advocate for?
    Mr. Roth. Thank you for that. Our budget history has been 
very positive since my arrival. Both 2015, 2016, and 2017 have 
invested in the OIG with the idea, as the Brookings Institution 
had done a study just last year saying that if you actually cut 
IG budgets, it actually costs you money when you cut IG 
budgets. We have certain metrics as to every dollar spent in 
the IG----
    Mr. Katko. Of course, you are going to say that, right?
    Mr. Roth. Well, it is not just us.
    Mr. Katko. I am just kidding.
    Mr. Roth. It is the Brookings Institution. We do keep 
metrics, for the statutory metrics, about every dollar that you 
spend on the IG, and I think community-wide it is about $17 to 
$1. I don't have our figure handy.
    But the risks that the Department faces are significant, 
and any time that you have growth in any areas within the 
Department, you are going to have risk. So if you are going to 
hire a significant number, for example, of Border Patrol agents 
or ICE deportation officers, that represents a risk to the 
Department that has to be addressed.
    Our internal affairs function, for example, we have one 
special agent for every thousand employees in the DHS. It 
creates significant challenges.
    I can go on. For example, in our cyber area, we have tried 
to increase our capabilities in that area to determine whether 
or not the Department is fulfilling its responsibilities in the 
cyber area, which is an enormous risk.
    I could spend your entire 5 minutes talking about the kinds 
of things that we do and why it is necessary for the kinds of 
budget support that we get, but I think you get the idea.
    Mr. Fitzpatrick. Mr. Roth and Mr. Alles, more importantly 
Mr. Roth, because you oversee all of DHS for OIG, the Border 
Corruption Task Force, which sat at the FBI's headquarters--I 
was previously part of that--how is that working? How are 
relations amongst the partners? Because, as you are aware, 
there were some problems in the past there.
    Mr. Roth. Yes. There were a number of problems in the past. 
I will freely acknowledge the fact that there were. A lot of it 
was on the fault of the OIG, and there was no question of that. 
I think we have mended those fences and are working well 
together.
    Frankly, it depends on what field office you go to. Some of 
it is personality-driven, and some of that, as you know, very 
difficult to change.
    Institutionally, we support the Border Corruption Task 
Forces. We participate in them. We have individuals who are 
colocated in the Border Corruption Task Forces, when we have 
the ability to. We only have about 250 special agents, probably 
200 and some are in the field. We are not like the FBI with 
10,000 agents. So we have to be careful as to where we put our 
personnel. But to the extent that we can, we colocate them with 
the FBI in those kinds of cases.
    Mr. Fitzpatrick. Thank you, Mr. Roth.
    I do want to note on the issue of the cuts to the OIG at 
DHS, there is a lot of talk about border security. One of the 
primary functions of your office is border corruption, which is 
as much of a vulnerability as a lack of a physical barrier, 
aerial surveillance, and the like. So all of that goes into the 
concept of border security, would you agree with that, and that 
cutbacks to the segments of DHS's budget would actually go to 
the border security issue?
    Mr. Roth. That is absolutely true. And that is especially 
true when you hire a work force, increase the work force that 
does the border security. There have to be the cops on the 
beat, the people who police the police.
    Mr. Fitzpatrick. Mr. Chairman, I yield back.
    Mr. Katko. Thank you, Mr. Fitzpatrick.
    The Chair now recognizes the gentlewoman from Texas, Mrs. 
Watson Coleman.
    Mrs. Watson Coleman. New Jersey. Ms. Jackson Lee.
    Mr. Katko. I am sorry. I have Watson Coleman on top of the 
list and I didn't cross it out. Let's try that again.
    The Chair now recognizes the gentlewoman from Texas, Ms. 
Sheila Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, I have absolutely no quarrel 
with being a twin of Mrs. Watson Coleman.
    Mrs. Watson Coleman. Likewise.
    Ms. Jackson Lee. But let me thank the Chairman and Ranking 
Member for their courtesies, and let me thank the inspector 
general and the new director of Secret Service for their 
service to the Nation.
    Let me, as well, indicate some of your staff may be aware 
that I have been working with the Secret Service for a very, 
very long time as a Member of this committee, and I want to 
ensure that you know that I appreciate your service greatly. I 
believe the men and women should, it should be known, that we 
appreciate the service that they give.
    I also want to take note of the fact, because of the able 
work of the staff of this committee, that I take very seriously 
the words of the Protective Mission Panel regarding the Secret 
Service's paramount mission of protecting the President and 
First Family, I think it is also important other high-ranking 
officials, which is to allow no tolerance for error and a 
single miscue or even a split-second delay could have 
disastrous consequences for the Nation and the world.
    We don't often be reminded of that, and I had the 
opportunity to see a movie that most people probably have not 
seen called ``Killing Reagan,'' and it powerfully exhibited the 
dangers that those who are in the Secret Service face when they 
are committed to putting their life on the line.
    I also take note that this organization has a problem with 
morale and attrition, and the issues are around the agent 
burnout due to inflexible schedules, long shifts, and agents 
having to work and not use their annual leave or potentially 
not receive overtime compensation.
    So I want to have a reasoned line of questioning on that 
basis. That would be to you, to the IG, again.
    I believe that the 102 million cut is obscene. I think the 
President's budget is obscene. It is not realistic. In all of 
the lipstick on a pig that you are try to place, such as the 
Department is increasing, but the cut to the Secret Service is 
absolutely obscene.
    Would you comment, please, on how deep a debt it is to have 
agents that are burned out, have inflexible hours, who have the 
responsibility of protectees, no matter how large a group 
happens to be in the First Family?
    Mr. Roth. Certainly, our prior work has shown the effects 
of overwork and fatigue, both on attrition as well as on 
mission capability, that our lookback on the fence-jumping 
incident, for example, showed that much of what occurred was 
because of inattention, we believe, due to fatigue, because of 
radios that were 17 years old and outside of their effective 
life cycle could not be repaired, for example. A number of 
errors upon errors.
    I would agree with you that, given the zero-fail mission of 
the Secret Service, we ought to be erring on the side of 
ensuring that they have the kinds of resources that they need. 
Again, in my testimony, I talk about the fact that they 
actually need about 7,200--let me make sure I get this right--
about 8,200 personnel, about 1,700 more than they currently 
have. The President's budget asks for an increase of 450, we 
think that is insufficient, that they need to get to the 
staffing models that the Secret Service themselves have 
created, sort of on a zero mission----
    Ms. Jackson Lee. I am going to interject because I have a 
series of questions.
    Mr. Roth. I apologize.
    Ms. Jackson Lee. So if you could quickly, the $12 million 
that is cut from the National Computer Forensics Institute, can 
you in answering that question tell me how the Secret Service 
is keeping up with its criminal investigation duties while 
shifting significant resources to cover its expanded protectee 
mission? So a combination of losing computer training dollars 
in a Federally-funded training center, helping local law 
enforcement, and then to criminal investigation. Just quickly, 
difficult, challenge?
    Mr. Roth. We haven't looked at that specific issue. I 
apologize for that, we don't have an answer for that.
    Mr. Alles. I would just comment we will----
    Ms. Jackson Lee. Mr. Director, I am going to turn right to 
you. Just one moment.
    Can you finish, what did you say? You didn't what?
    Mr. Roth. We haven't looked at that specific issue with 
regard to the specific fiscal 2018 budget cuts.
    Mr. Jackson Lee. But would it be difficult?
    Mr. Roth. Of course, yes.
    Ms. Jackson Lee. All right. I want to turn to the director, 
and thank you very much. As I indicated, welcome. Go right 
ahead, criminal investigation, losing that money for the 
National----
    Mr. Alles. So we consider it critical, we will move to 
reprogram money to make sure it is funded. It is very critical 
to State and local people to--we train a lot of them down there 
in Hoover, Alabama.
    Ms. Jackson Lee. Great. Let me just, if I might, indulge me 
just for a moment, two things I want to cast on you. First of 
all, we have for a long time--this is to the director--worked 
to settle the Moore case. It has been settled, there is a 
judgment, there is money. I would like to know the status of 
that case and how you are responding to making those people 
whole.
    The second, what I would like is to try to understand the 
size of the First Family--and some of this, Mr. Chairman, I 
would like to have in a Classified setting, we may have had one 
and I might have missed it. But I would make the point that 
there should be no diminishing of security, but it is certainly 
an extensive burden when you have protectees that are part of 
the Cabinet and sublevels that travel all over.
    So my question is how are you facing that generally? Are 
you placing people at Mar-a-Lago continuously or people have to 
move back and forth? If they wind up on the Mediterranean, do 
we have to send people there? We are not used to--we have 
humble people that are Presidents. We are not used to having 
billionaires, self-stated billionaires that have a life of 
frivolity where they summer here and winter here and the 
American people are still struggling to pay their rent. But the 
question is if they wind up in the Mediterranean for frivolity, 
then you have to have international resources to take care of 
that. Is that correct? You don't yield that to an international 
resource, meaning you don't yield that to foreign secret 
service.
    Mr. Alles. Well, if they are in a foreign country, ma'am, 
we do have to cooperate with foreign service as in make 
agreements diplomatic and what services we can provide in terms 
of protection. So we will protect them, but we do have to do it 
in cooperation with----
    Ms. Jackson Lee. So that is costing money?
    Mr. Alles. Clearly, when there is travel, there is going to 
be cost associated with it. Just to mention, in terms of 
residences, unless they are there full-time, we don't 
necessarily have full-time protection as residences. So a 
couple that you have mentioned would typically be like travel 
locations. If they are going to go down there, we will take 
necessary actions to ensure the site is prepared for the 
protectees to arrive.
    Ms. Jackson Lee. I will just finish on this point, Mr. 
Chairman and Ranking Member, again, I want to do everything I 
can to work with the Secret Service because I do believe the 
storied history of the Secret Service deserves our 
acknowledgment. Certainly to the work you have done, to the IG, 
I am very grateful that you are not subject to political whims 
so that we can get the Secret Service both in terms of the 
quality of young men and women who I believe would be 
interested in being recruited. Based upon salary and work 
conditions, but more importantly not to say anybody shuns their 
service, but to have them at their peak, because their ultimate 
responsibility is to save a life.
    So this is a disappointing budget. You are being a good 
soldier to the director, but you are being a good soldier and 
you are squeezing and picking and nitpicking and squeezing here 
and taking here. It is an absolute outrage, and I will frankly 
say that the Congress is going to ignore it completely and try 
to do what is right as relates to the Secret Service.
    With that, Mr. Chairman, I yield back. I look forward to 
some Classified briefings where we can ask some more detailed 
questions about their work with protecting protectees. Thank 
you very much.
    Mr. Katko. Yes. We will definitely look at that in the 
future going forward as far as a Classified briefing or hearing 
in that matter. Thank you very much, Ms. Jackson Lee.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Director Alles, am I saying your name properly, sir?
    Mr. Alles. Alles, sir.
    Mr. Higgins. Director Alles, thank you for your service. I 
have been a police officer for 14 years, SWAT for 12. It is 
interesting when we consider that the Secret Service was born 
of the Treasury Department to protect the people's treasure. 
Part of this committee's job as we--our Nation faces a $20 
trillion debt is it to protect the people's Treasury. So let's 
work together.
    During the course of the history of the Secret Service, 
when President Obama traveled abroad, did the Secret Service 
provide protection?
    Mr. Alles. Yes, sir, absolutely.
    Mr. Higgins. When he vacationed in Martha's Vineyard, did 
the Secret Service provide protection?
    Mr. Alles. Yes, sir.
    Mr. Higgins. When President Bush was President, he traveled 
to Crawford. Did the Secret Service provide protection?
    Mr. Alles. Yes, sir.
    Mr. Higgins. When President Carter traveled, way back in 
the 1970's, did the Secret Service provide protection?
    Mr. Alles. Yes, sir.
    Mr. Higgins. When President Reagan went to the western 
White House, did the Secret Service provide protection?
    Mr. Alles. Yes, sir.
    Mr. Higgins. Are you aware of any notation within the 
Constitution of these United States that limits the size of the 
First Family's number?
    Mr. Alles. No, sir. We are just required by statute to 
protect them.
    Mr. Higgins. Thank you, sir. Let's move on, shall we?
    During the course of my career as a police officer, I have 
had the honor to work with the Secret Service on a couple of 
Treasury cases. I find you gentlemen to be the most 
professional and tactically sound amongst our country. I thank 
you all for your service.
    When you spoke of running scenarios, you were referring to, 
of course, tactical scenarios, like active shooter, barricaded 
hostage, VIP extraction, et cetera?
    Mr. Alles. Those would be sort-of part of them, but also 
scenarios that might involve complex attacks in the White 
House.
    Mr. Higgins. Yes, sir. In the absence of a mock-up of the 
White House, has the Secret Service conducted scenario 
training?
    Mr. Alles. Only in a table-taught manner. We are looking at 
how we might do that at the White House itself. It has 
complications.
    Mr. Higgins. But do you not have access to facilities where 
your agents can use--can conduct tactical training with 
simunition, et cetera?
    Mr. Alles. We do. What I would point out is one of the 
recommendations of the Protective Mission Panel was our 
training levels. Those have improved for our ERT people, but 
for our line agents and our UD officers it is not because of 
the workload they are under.
    Mr. Higgins. Excellent answer. Regarding cybersecurity, 
Inspector General, I would like to direct this question to you, 
sir. You have assessed that the Secret Service's efforts to 
update and modernize its aging information technology 
infrastructure. I recently traveled with this committee to 
Eastern Europe to study Russian aggression, including cyber 
attack.
    Considering the nature of the age of the IT infrastructure 
within the Secret Service, what challenges does this budget 
pose regarding hardening those systems and protecting them from 
cyber attack? This was specifically considering the fact that 
the treasury departments of other nations have been targeted by 
Russian cyber attack.
    Mr. Roth. I think any time that you have an old IT system, 
they are inherently vulnerable. One of the defenses for an IT 
attack, a cyber attack, is to ensure that you have the most 
modern equipment with the most up-to-date software. It is very 
difficult in a budget environment that prevents you from having 
the kinds of technological refreshes that would, in fact, keep 
you up-to-date and keep you current on cyber defenses.
    Mr. Higgins. So do you have processes in place that have 
responded to the current heightened threat environment of cyber 
attack? Is the Treasury sufficiently protected from cyber 
attack?
    Mr. Roth. Within DHS we do reviews. The Federal Information 
Security Management Act requires annual reviews of every 
components cyber posture, for lack of a better word. The 
Department itself does monthly reviews and scorecards to 
determine whether or not each component within the Department 
has the right kinds of protections in place. It is an on-going 
challenge, it is a continuing challenge. DHS historically has 
been challenged in this area, and Secret Service has been 
especially challenged in this area.
    Mr. Higgins. Do you have dedicated staff that conduct cyber 
protection exercises?
    Mr. Roth. The Department does have a chief information 
security officer, and each component within DHS has a chief 
information security officer with staff whose job it is to 
harden the computer networks and measure exactly where they are 
on that spectrum.
    Mr. Higgins. Thank you for that very thorough answer, sir. 
Thank you both for being here today.
    Mr. Chairman, I yield back.
    Mr. Katko. Thank you Mr. Higgins.
    Before we conclude, Mrs. Watson Coleman has one quick 
question, and then I have a suggestion I want to proffer to 
both of you.
    So, Mrs. Watson.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. I want to 
thank you for your generosity in this. It is actually a little 
bit more than one question.
    I just want to lay some things on the table that I hope--so 
if you would like for us to----
    Mr. Katko. No, it is no problem at all. We have got some 
flexibility. Enjoy it.
    Mrs. Watson Coleman. I like that, I like that.
    First of all, Mr. Alles, I asked a question of you that I 
really want you to respond to. I don't know if you will be able 
to respond it to it now, but I am seriously interested in 
understanding our responsibility to the adult members of the 
Trump family that we are protecting while they are doing 
business to enrich the Trump agencies and what that means.
    I am also interested in following up specifically on the 
impact of the Moore settlement. What does it mean? Where are 
you all? What have you done? Sort of what your employment 
situation looks like.
    I want you to also know that I am interested in both of 
your comments with regard to resources that are needed. For 
instance, the old radios and things of that nature. Well, what 
else are we talking about that I can't sort-of quantify in this 
budget? What would it be and how much would it be?
    Last--and I want to thank you, Mr. Chairman, because we 
really covered a lot. I want you to know that I want to work 
with you all, because I believe that your agency is so vitally 
important, and we need to support the good men and women who 
are working there. I also look forward to our having our 
meetings in a more confidential way.
    The other thing is this, for the record, I don't think that 
we should not be protecting each and every one of our 
Presidents and their families as they are doing their 
traveling. But I really do need to reiterate, for the record, 
that in the entire Obama Presidency, we spent $97 million on 
travel. On the first 80 days of the Trump Presidency, we have 
spent $20 million taxpayer dollars. That must mean something in 
terms of our responsibilities and the needs associated with 
that.
    With that, I yield back to my new Chairman, and I thank you 
very much.
    Mr. Higgins [presiding]. I thank the Ranking Member.
    I recognize myself for a moment.
    Gentlemen, regarding the budget as it is being discussed, 
and we hope that we can discuss this in a bipartisan manner, 
this committee recognizes the bipartisan nature of Homeland 
Security and every possible endeavor we set politics aside and 
try to work together.
    So regarding the budget, could you give us a brief 
statement regarding how you would prioritize additional budget 
expenditures? Were we able to find the people's treasure to be 
wisely invested, as our colleagues have suggested? Could you 
give us some priorities?
    Mr. Alles. So from a Secret Service standpoint, one already 
mentioned is IT technology and infrastructure enhancements. 
That is one top area for us. The training center out at Rowley 
facility upgrades would help us significantly, along with the 
White House mock-up. Then beyond that, our weapons upgrades and 
our armored vehicle upgrades, really the future program, the 
vehicles have to be refreshed obviously and replaced as they 
wear. They are heavy vehicles and they do wear out.
    So those really are our top five needs that we are looking 
at right now. I would just underwrite probably my No. 1 need 
continues to be, as mentioned by the IG, is the hiring and 
continuing to ramp up the levels in the Secret Service.
    Mr. Higgins. I am impressed that you had that list on the 
top of your head. Can you provide that prioritized list to this 
committee, sir?
    Mr. Alles. We can, yes, sir.
    Mr. Higgins. Thank you. I will relieve myself as Chair. It 
has been a nice visit.
    Mr. Katko [presiding]. Might I say, he has done a superb 
job.
    Do you have any quick questions?
    OK. Before we conclude, I do want to make a suggestion, and 
it is based on everything that has transpired today, but also 
from Mr. Roth's prior report and everything else.
    It is clear that some things need to be done and it is 
clear that this budget doesn't reflect it. It is also clear 
that I think that Director Alles may have some sort of 
constraints with respect to what exactly he is going to request 
because of his position. I understand that. But I want to 
suggest that we do something a little different here, and that 
is within a month, ask the staffs of the committee, as well as 
folks from Secret Service, as well as from the inspector 
general's office, to come up, instead of general 
recommendations and general observations that are problems, 
come up with specific requests of what you think we are going 
to need. Then let us see what we can do. OK? Make it your wish 
list, if you will.
    But there is obviously some systemic things here. Do we 
need to tweak retirement to reflect the fact we need to retain 
these highly specialized people in a different field? Do we 
need to do something about the pay? Obviously, we do. Do we 
need to do something about the manpower? The major issues. 
Instead of just giving a top line messaging, give us the nitty-
gritty of what it is from--that is different from the budget 
that we really need to do.
    I--that is the only way we are ever going to really get to 
the bottom of this and try and really make some real changes. 
So--and quantify it, right, so we can figure out exactly what 
it is we can do to try and help you. Because this is a 
critical--I view this as a critical juncture for Secret 
Service. Director Alles is in kind-of a good situation because 
you have the opportunity to have almost a clean slate, and this 
is a new hearing. This is a new committee here as far as our 
jurisdiction over Secret Service, so let us try and see what we 
can come up with, but let's do it in a collaborative effort and 
see what we can do.
    So I ask all of you within 1 month of today to come up with 
some suggestions as to possible fixes, be they legislatively or 
otherwise. Most likely will be legislatively. We have never 
been shy to do that, so let's take a look at that.
    Does that sound all right, everybody?
    Mr. Roth. Yes.
    Mr. Alles. Yes, sir.
    Mr. Katko. All right. I want to thank all the witnesses for 
their testimony and the Members for their questions. The 
Members of the committee may have some additional questions for 
the witnesses, and we will ask you to respond to these in 
writing.
    Pursuant to committee rule VII(D), the hearing record will 
be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
